<html>
<title> - DEPARTMENT OF HEALTH AND HUMAN SERVICES FISCAL YEAR 2021 BUDGET</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                DEPARTMENT OF HEALTH AND HUMAN SERVICES
                        FISCAL YEAR 2021 BUDGET

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

            HEARING HELD IN WASHINGTON, D.C., MARCH 4, 2020

                               __________

                           Serial No. 116-23

                               __________

           Printed for the use of the Committee on the Budget
           
           
           
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
           


                       Available on the Internet:
                            www.govinfo.gov
                            
                            
                            _____

               U.S. GOVERNMENT PUBLISHING OFFICE 
42-241                WASHINGTON : 2020 
                             
                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
ROSA L. DELAURO, Connecticut         JASON SMITH, Missouri
LLOYD DOGGETT, Texas                 BILL FLORES, Texas
DAVID E. PRICE, North Carolina       GEORGE HOLDING, North Carolina
JANICE D. SCHAKOWSKY, Illinois       CHRIS STEWART, Utah
DANIEL T. KILDEE, Michigan           RALPH NORMAN, South Carolina
JIMMY PANETTA, California            KEVIN HERN, Oklahoma
JOSEPH D. MORELLE, New York          CHIP ROY, Texas
STEVEN HORSFORD, Nevada              DANIEL MEUSER, Pennsylvania
ROBERT C. ``BOBBY'' SCOTT, Virginia  DAN CRENSHAW, Texas
SHEILA JACKSON LEE, Texas            TIM BURCHETT, Tennessee
BARBARA LEE, California
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee
RO KHANNA, California

                           Professional Staff

                      Ellen Balis, Staff Director
                  Becky Relic, Minority Staff Director
                  
                                CONTENTS

                                                                   Page
Hearing held in Washington, D.C., March 4, 2020..................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     4
    Hon. Steve Womack, Ranking Member, Committee on the Budget...     6
        Prepared statement of....................................     8
    Hon. Eric D. Hargan, Deputy Secretary, Department of Health 
      and Human Services.........................................    12
        Prepared statement of....................................    14
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      statement submitted for the record.........................    69
    Hon. John A. Yarmuth, Chairman, Committee on the Budget, 
      questions submitted for the record.........................    76
    Hon. Chris Stewart, Member, Committee on the Budget, 
      questions submitted for the record.........................    78
    Answers to questions submitted for the record................    79


                        DEPARTMENT OF HEALTH AND
                        
                             HUMAN SERVICES.
                             
                       FISCAL YEAR 2021 BUDGET

                              ----------                              


                        WEDNESDAY, MARCH 4, 2020

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room 210, Cannon House Office Building, Hon. John A. Yarmuth 
[Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Moulton, Higgins, 
Schakowsky, Morelle, Horsford, Jackson Lee, Jayapal, Khanna; 
Womack, Woodall, Johnson, Smith, Flores, Holding, Stewart, 
Norman, Hern, Roy, Meuser, and Burchett.
    Chairman Yarmuth. Good morning. I want to welcome everyone 
to this hearing on the Department of Health and Human Services' 
Fiscal Year 2021 Budget. And I certainly welcome the Deputy 
Secretary for the Department of HHS, Eric Hargan.
    Thank you for being here today. I now will yield myself 
five minutes for an opening statement.
    Deputy Secretary Hargan, the importance of the Department 
of Health and Human Services cannot be overstated. But now, 
amid the deadly coronavirus outbreak, the work of HHS has 
unmatched importance. Strategic investments in public health 
systems, research into a vaccine and treatments, availability 
of accurate testing, and access to high-quality care are 
critically important.
    But the contrast between those needs and the Trump 
Administration's budget could not be more stark. Instead of 
proposing a realistic budget for HHS and taking the health and 
well-being of Americans seriously, the President has called for 
draconian cuts, mounted consistent attacks on our health care, 
undermined the agencies charged with keeping us safe, and 
starved our communities of critical resources.
    President Trump has proposed a nearly $10 billion cut to 
HHS's discretionary budget, including debilitating cuts to the 
CDC and NIH. He slashes mandatory health care spending by $1.6 
trillion over 10 years, including a $900 billion cut to 
Medicaid, a half-a-trillion-dollar cut to Medicare, and a $200 
billion cut to other health programs.
    The budget would require all states to enact work 
requirements for Medicaid enrollees with no exceptions for 
pregnant women, parents, the chronically ill, and other 
vulnerable Americans. This comes despite the fact that no 
evidence exists to support the Administration's claim that they 
increase the financial well-being of Medicaid enrollees.
    The Administration's real goal here, it appears, is to 
create yet another barrier so that hundreds of thousands, if 
not millions, of Americans lose their Medicaid coverage, and 
now at the worst possible time.
    That is not the only way this budget makes life harder for 
millions of families. It includes the elimination of block 
grants and programs like LIHEAP that help working families 
fight their way out of poverty.
    Despite the President's promise to prioritize child care, 
any investments made in this budget would be nullified by the 
complete elimination of the Social Services Block Grant and the 
Community Services Block Grant, and the $21.3 billion cut to 
the Temporary Assistance for Needy Families program.
    There are other areas of the budget that don't add up, 
either, where the message doesn't match the math. The budget 
includes a $716 million investment in HIV/AIDS, but cuts 
important NIH research programs dedicated to HIV prevention and 
treatment by 8 percent. It also cuts programs to treat global 
HIV/AIDS by $2 billion, or 35 percent.
    The budget requests $169 million in new resources to combat 
the opioid epidemic, but these nominal investments are negated 
by the nearly $900 billion cut to Medicaid, the source of 
coverage for four in 10 adults with opioid addiction.
    When you compare these small funding increases to the huge 
cuts that they are paired with, it is not hard to see them for 
what they are: token investments designed to get a good 
headline. If there is another explanation, Deputy Secretary 
Hargan, we would welcome it.
    We would also welcome some details on the President's so-
called vision for American health care, since there are none in 
this budget, nothing specific about the President's so-called 
commitment to lowering prescription drug prices, nothing about 
expanding access to affordable, quality health care. It is 
nothing but a vague promise.
    There are many troubling parts of this budget, particularly 
since the line between massive HHS funding cuts and severe 
consequences for American families, between policy changes and 
life-or-death outcomes, is so direct.
    But, look, this is not a normal budget hearing. We are 
potentially facing a public health crisis like we haven't seen 
in years. And, from everything I have seen, this President 
doesn't get that. He sought to under-fund or eliminate programs 
to respond to public health emergencies from the get-go. Two 
years ago he fired the government's entire pandemic response 
chain of command and never replaced them. He told the American 
people that the virus was largely contained. Then he said it 
will go away in April, when temperatures warm up. Both aren't 
true. He proposed a woefully inadequate coronavirus 
supplemental that cannibalized other programs, playing a 
dangerous game of public health whack-a-mole.
    And the President's budget has no shortage of broken 
promises, harsh cuts, and cruel policies that place little 
importance on public health, and jeopardize the health care 
security of millions of Americans. Our President is clearly not 
up to the task.
    But, Deputy Secretary, I hope you have more to offer the 
American people today. I hope you are able to help reassure all 
of us that our government is on top of this, that the doctors 
and scientists who really know what they are doing are making 
the decisions, and that everything is being done to protect the 
American public. We look forward to your testimony, your 
response to these concerns, and getting some sort of 
justification for the decisions made in this budget.
    [The prepared statement of Chairman Yarmuth follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairman Yarmuth. And with that I yield five minutes to the 
Ranking Member.
    Mr. Womack. I thank the Chairman for holding this hearing.
    Thank you, Mr. Deputy Secretary, for your witness testimony 
here today.
    Today we examine the President's budget request for the 
Department of Health and Human Services for Fiscal Year 2021, 
an important conversation, in my judgment, and one that we are 
having because the President, unlike my colleagues on the other 
side of the aisle, actually produced a budget.
    The primary responsibility of this Committee is to put 
forth a budget resolution. In fact, it is required by law. Yet, 
for the second year in a row, this Committee has abdicated on 
its responsibility. I know there will be plenty of discussion 
today, but I hope my colleagues will remember that political 
commentary won't change the important issues we need to 
address.
    With that said, let's turn to the President's budget 
request for HHS for this fiscal year.
    HHS is responsible for administering programs from which 
millions of Americans--on which millions of Americans rely, 
including Medicare, Medicaid, TANF, and Head Start. You are 
also charged with addressing some of the country's biggest 
health crises, including coronavirus.
    The agency also faces several budgetary challenges that 
must be addressed: the ever-ballooning cost of prescription 
drugs, the solvency of the Medicare Trust Fund, and the 
untenable spending trajectory of Medicaid.
    Health care spending is growing faster than any other 
sector of our economy. In 2018 the U.S. spent $3.6 trillion on 
health care. By 2027, health care spending is projected to 
reach nearly $6 trillion, just under 20 percent of America's 
GDP, according to a recent report from the Centers for Medicare 
and Medicaid Services' actuary. Congress has to pay attention 
to the factors that are fueling this growth.
    First, the cost of care is increasing. According to the 
Bureau of Labor Statistics, in 2019 the price of hospital 
services increased by 3.8 percent, and the price of medical 
care increased by 5.1 percent, both of which are higher than 
the rate of inflation.
    Second, Americans are living longer. Thanks to advancements 
in modern medicine, the average life expectancy has increased 
by roughly nine years since Medicare was created in 1965. Now, 
that is good news, but it does have an impact on the growing 
health care issues facing our country.
    Finally, the ratio of retirees to workers is shrinking. 
That is not good news. An average of 10,000 Baby Boomers are 
leaving the work force every day.
    Unfortunately, the laws that govern how our health care 
programs work have not kept pace with these realities. As a 
result, there is increasing pressure on programs like Medicare, 
which provides care to about 18 percent of our population. As 
an example, Medicare Part A, which covers in-patient hospital 
care, skilled nursing facilities, hospice, and lab tests, is 
expected to be insolvent by 2026, threatening the health 
benefits many people expect to receive in the future. That is 
only six years away.
    Congress and the Administration have a shared 
responsibility to address these challenges and put our health 
care spending back on a sustainable path. I would argue that 
Congress and the Administration not only have a shared 
responsibility, that is our only hope. That requires taking a 
hard look at what is working and what is not. It requires the 
fortitude to make tough choices that strengthen programs for 
today and tomorrow.
    The President's budget takes important steps to do that. It 
invests in the long-term health of the American people, while 
also advancing proposals that will help rein in health care 
spending. For example, it doubles down on the addressing--on 
addressing the opioid epidemic by bolstering the SUPPORT Act, 
which expands across to substance use disorder prevention and 
treatment. Additionally, it includes new resources to expand 
state opioid response grants that provide direct treatment, 
recovery, and relapse prevention. It also supports our 
commitment to decreasing the number of people affected by HIV, 
by making vital investments in programs aimed at reducing new 
infections by 90 percent within a decade.
    At the same time, the budget includes several common-sense 
reforms that have been proposed by both Republicans and 
Democrats to make Medicare work better for patients, by cutting 
waste, fraud, and abuse, increasing competition, and lowering 
drug prices and out-of-pocket costs. These comprehensive 
efforts are poised to achieve roughly $1.7 trillion in savings 
in mandatory spending. That is important progress, but with $23 
trillion in debt, and annual deficits over $1 trillion, there 
is much more work that has to be done.
    As I have said before, mandatory spending accounts for 70 
percent of all federal spending today, and it is on a glide 
path to go to 76 percent by 2030. Until we make structural 
reforms to mandatory spending programs like Medicare, 
discretionary spending, including funds for defense and other 
key domestic priorities--and let me add, priorities that are 
equally important to both sides of the aisle--are going to 
continue to be squeezed.
    Congress will continue to have the same battles year after 
year over what programs to fund, and how to handle our deficit 
and debt. Instead of it recognizing these fiscal realities, my 
colleagues on the other side of the aisle continue to propose 
bills like Medicare for All, which would radically disrupt our 
health care system.
    So I look forward to your testimony today, Mr. Deputy 
Secretary. I again thank my friend from Kentucky for holding 
this hearing, and I yield back the balance of my time.
    [The prepared statement of Steve Womack follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Yarmuth. I thank the gentleman for his opening 
statement and for--in the interest of time, if any other 
Members have opening statements, you may submit those 
statements in writing for the record.
    And now, once again, I am happy to introduce Deputy 
Secretary of the Department of HHS, Eric Hargan.
    And I yield five minutes to you for your opening remarks.

STATEMENT OF HON. ERIC D. HARGAN, DEPUTY SECRETARY, DEPARTMENT 
                  OF HEALTH AND HUMAN SERVICES

    Mr. Hargan. Thank you, Chairman Yarmuth and Ranking Member 
Womack. Thank you again for inviting me to discuss the 
President's budget for HHS for Fiscal Year 2021. I am honored 
to appear before this Committee for budget testimony as deputy 
secretary for the second time, especially after the remarkable 
year of results that the HHS team has produced.
    With support from Congress this past year, we saw the 
number of drug overdose deaths decline for the first time in 
decades; another record year of generic drug approvals from 
FDA; and historic drops in Medicare Advantage, Medicare Part D, 
and exchange premiums.
    The President's budget aims to move toward a future where 
HHS programs work better for the people we serve, where our 
human services programs put people at the center, and where 
America's health care system is affordable, personalized, puts 
patients in control, and treats you like a human being, not a 
number.
    HHS has the largest discretionary budget of any non-defense 
department, which means that difficult decisions must be made 
to discretionary spending on a sustainable path. The 
President's budget proposes to protect what works in our health 
care system and make it better. I will mention two ways we do 
that: first, facilitating patient-centered markets; and second, 
tackling key impactable health challenges.
    The budget's health care reforms aim to put the patient at 
the center. It would, for instance, eliminate cost sharing for 
colonoscopies, a lifesaving preventive service. We would reduce 
patients' costs and promote competition by paying the same for 
certain services, regardless of setting.
    The budget endorses bipartisan, bicameral drug pricing 
legislation, and the overall reforms will improve Medicare and 
extend the life of the hospital insurance fund for at least 25 
years.
    We propose investing $116 million in HHS's initiative to 
reduce maternal mortality and morbidity.
    To tackle America's rural health crisis, which is of 
particular interest to me, as someone who grew up in rural 
southern Illinois, we propose reforms, including telehealth 
expansions and new flexibilities for rural hospitals.
    The budget increases investments to combat the opioid 
epidemic, including SAMHSA State Opioid Response Program, which 
we focused on providing medication-assisted treatment, while 
working with Congress to give states flexibility to address 
stimulants like methamphetamines.
    We request $716 million for the President's initiative to 
end the HIV epidemic in America, which we have already begun 
implementing with Congress's support.
    The budget also reflects how seriously we take the threat 
of other infectious diseases, such as COVID-19. It prioritizes 
CDC's infectious disease programs, raising spending on them by 
135 million from Fiscal Year 2020 levels to $4.3 billion, and 
maintains $675 million in state and local preparedness funding. 
As of this morning we have 78 cases of the novel coronavirus 
here in the United States, excluding cases that have been 
repatriated here.
    As President Trump, Vice President Pence, Secretary Azar, 
and all our public health leaders have emphasized, the general 
risk to the American public remains low, in significant part 
because of the President's decisive actions so far. But that, 
as we have emphasized repeatedly, has the potential to change 
quickly, and the risk can be higher for those who may have been 
exposed to cases here or who have been to affected areas. We 
are working closely with state, local, and private-sector 
partners to prepare for the potential need to mitigate the 
virus's spread in the United States.
    As you all know, OMB has sent a request to make funding 
available for preparedness and response, including for 
therapeutics, for vaccines, personal protective equipment, 
state and local support, and surveillance. The President has 
made clear that we are open to your views on the levels of 
spending that may be appropriate. With Secretary Azar serving 
as Chairman of the president's coronavirus task force, we look 
forward to working alongside the Administration's lead for the 
virus, Vice President Pence, to secure the necessary funding 
from Congress.
    Last, when it comes to human services, the budget cuts back 
on programs that lack proven results, while reforming programs 
like TANF to drive state investments and supporting work, and 
the benefits it brings for well-being. We continue the Fiscal 
Year 2020 investments Congress made in Head Start and child 
care programs, which promote children's well-being and adults' 
independence.
    This year's budget aims to protect and enhance Americans' 
well-being, and deliver Americans a more affordable, 
personalized health care system that works better, rather than 
just spends more. Secretary Azar and I look forward to working 
with this committee to make that common-sense goal a reality.
    Thank you.
    [The prepared statement of Eric D. Hargan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Yarmuth. I thank you for your remarks. And, as a 
reminder, again, Members can submit written questions to be 
answered later in writing.
    And, as Deputy Secretary Hargan and I discussed yesterday, 
there may be areas which you don't specifically have the 
expertise in, but you are happy to get answers from the 
Department.
    Mr. Hargan. Absolutely.
    Chairman Yarmuth. So I want all the Members to know that.
    And those questions and the answers from the Department 
will be made part of the formal hearing record. Any Members who 
wish to submit questions for the record may do so within seven 
days.
    As we usually do, the Ranking Member and I will defer our 
questions until the end. And because the coronavirus spread 
significantly in Washington state, and reports of nine deaths 
due to the virus there, this has directly affected Ms. 
Jayapal's district. For that reason, as a matter of courtesy, I 
now recognize the gentlewoman from Washington state, Ms. 
Jayapal, for five minutes.
    Ms. Jayapal. Thank you, Mr. Chairman, and thank you, Deputy 
Secretary, for being with us.
    As you know, my home state of Washington was the first to 
experience a coronavirus case back in January. We are now 
looking at nine deaths in the state of Washington. I am 
incredibly proud of our state's first responders, public health 
officials, and infrastructure that has been built, and the 
tremendous efforts and work that they have put forward.
    I do have to tell you that the response efforts have 
resulted in an estimated $200,000 a week of unexpected costs in 
Seattle and King County alone. People on the front lines, 
including health workers and emergency service personnel, were 
not provided with adequate personal protective equipment in 
advance. And the initial botched test kits and the slow 
response from the Administration on testing protocols were 
incredibly detrimental to our efforts.
    In fact, Washington State is still waiting for half of the 
requested medical supplies for response efforts. Calling this a 
hoax, as President Trump did in the early days of this virus, 
was extremely damaging. And taking just $2.5 billion dollars 
from other needed sources, as the Administration's initial 
response to this, was simply not sufficient.
    Thanks to appropriators, we will, hopefully, have an $8 
billion-plus package that we will pass through the House.
    But it is time, Mr. Deputy Secretary, to stop playing 
politics with this. We are losing people's lives as a result.
    I want to start by asking you, is it a public health 
priority to ensure that anybody who is experiencing these 
symptoms and/or has been in contact with an infected person 
comes to get a test?
    Mr. Hargan. Well, thank you for that, Congresswoman. And I 
just want to say my sincerest condolences go out to all the 
families who have lost loved ones in Washington, and our 
sympathies to them. Any loss of life is a tragedy. And of the 
nine individuals that have passed, we know five were residents 
of a nursing home there in Washington. And also our thoughts go 
out to the health care workers in Washington, as you pointed 
out, the first responders and everyone who has been dealing----
    Ms. Jayapal. Thank you. They need the supplies, they need 
the tests, they need the protective equipment. But thank you 
for that.
    Mr. Hargan. Yes, exactly.
    Ms. Jayapal. And if you could just----
    Mr. Hargan. And as for the tests, I think that, for 
anything with regard to particularities, I want to make sure 
everyone goes to CDC.gov for the recommendations that the 
federal government----
    Ms. Jayapal. Can I just ask you to answer the question, 
Deputy Secretary?
    Mr. Hargan. Sure.
    Ms. Jayapal. Is it necessary, in order to prevent a public 
health crisis here in this country, that we ensure that 
everybody who has experienced the symptoms, or believes to be 
in touch with an infected person, goes in to seek testing?
    Mr. Hargan. I believe that----
    Ms. Jayapal. Or public health support.
    Mr. Hargan. Right----
    Ms. Jayapal. Is that necessary?
    Mr. Hargan. I believe that, you know, given the symptoms of 
the disease--and I will defer to clinicians on exactly what is 
done with testing. However, to repeat what our public health 
professionals have said, everyone--the symptoms of this disease 
resemble other respiratory illnesses. In many cases, people get 
the disease and do not know----
    Ms. Jayapal. Is it a priority for people to seek care?
    Mr. Hargan. People should--if people seek care--many times 
with mild and moderate illnesses, people are recommended to 
stay home, to treat themselves. People who need medical care 
should come to a health care facility. And----
    Ms. Jayapal. So it is a priority for people----
    Mr. Hargan. And----
    Ms. Jayapal [continuing]. who experience the symptoms that 
are described by CDC's protocol to come in and seek care. Is 
that correct?
    Mr. Hargan. For the level of severity that they announce. 
So it is----
    Ms. Jayapal. Thank you.
    Mr. Hargan. So, in other words, CDC does not say everyone 
who is experiencing any level of some kind of--that seems 
like----
    Ms. Jayapal. No, they have laid out a very clear protocol--
--
    Mr. Hargan. Right.
    Ms. Jayapal [continuing]. and set of guidelines.
    Mr. Hargan. Yes.
    Ms. Jayapal. For those people that experienced that----
    Mr. Hargan. For those people----
    Ms. Jayapal [continuing]. that have been in touch with 
infected people, is it a priority to come in and seek care?
    Mr. Hargan. They should follow CDC's protocols, and local 
and state health authorities should consult those, and look at 
their plans----
    Ms. Jayapal. OK.
    Mr. Hargan [continuing]. to make recommendations----
    Ms. Jayapal. What about the Administration's public charge 
rule that has created a chilling effect for people to come in 
and seek care?
    Are you telling the Department of Homeland Security and the 
Administration that that is not helping to contain what may be 
an impending pandemic that would affect every American, not 
just those Americans who don't seek that care?
    Mr. Hargan. I would have to defer questions on that rule to 
the Department of Homeland Security.
    Ms. Jayapal. But don't you think that is important, as a 
public health official, the Deputy Secretary of the Department 
of Public Health, to ensure that people do not face those 
barriers if they are experiencing those protocols?
    Mr. Hargan. Any local decision about how someone responds 
and gets care is, you know--obviously, that is a matter of 
public health import. However, any questions about the 
particular rule should go to Homeland Security. They are----
    Ms. Jayapal. I would hope that you----
    Mr. Hargan. That is their rule.
    Ms. Jayapal [continuing]. would let the Department of 
Homeland Security know that this is a public health issue for 
all Americans, that people do not seek care because they are 
afraid that they are going to be deported the next day, or seen 
as a public charge.
    Mr. Deputy Secretary, some individuals have gotten tested, 
found that they are tested negative, and now they owe over 
thousands of dollars in medical bills. In a health care system 
in which 70 million people are uninsured or under-insured, and 
which over 500,000 people are declaring bankruptcy every day--
every year due to medical bills, what is your plan to work with 
insurance companies, pharmaceutical companies, and hospitals to 
make sure that people don't go home with bills that may 
bankrupt them?
    Mr. Hargan. You know, we do maintain support for the ACA 
exchanges that provide insurance on the exchanges. We have many 
options and choices that are available in this country for 
people to finance their care.
    We also provide increased support to community health 
centers. We are very supportive of them. They provide care for 
many millions of Americans at reduced cost, and they are 
available in communities around this country.
    Ms. Jayapal. You are aware that, as the Ranking Member has 
undermined the Medicare for All bill, which would provide 
universal health care for everybody, the Trump Administration 
has worked very hard to cut the care that is provided under the 
Affordable Care Act. I hope you are aware of that. It has 
serious implications now, during this time of crisis for many 
people across my state and, frankly, across the country.
    Mr. Chairman, I know my time has yielded.
    Chairman Yarmuth. That is all right.
    Ms. Jayapal. I thank you for your generosity.
    Chairman Yarmuth. The gentlewoman's time has expired. I now 
recognize the gentleman from Ohio, Mr. Johnson, for five 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I am really actually 
glad to hear my colleague acknowledge the skyrocketing cost of 
health care, the lack of access, the number of under-insured. 
Thank you, Obamacare. I am glad you acknowledged that.
    Mr. Chairman, thanks for today's hearing.
    And Mr. Hargan, thank you for coming in to address our 
Committee today. I am glad we are here to discuss the 
President's Fiscal Year 2021 Department of Health and Human 
Services budget request.
    I am frustrated that this Committee has once again convened 
a hearing to discuss the President's budget when my Democrat 
colleagues refuse to produce a budget proposal of their own. It 
is easy to sit up here and criticize the work that has already 
been done, but it is the job of this Committee to produce a 
budget, address our nation's fiscal challenges, and ensure that 
our government's finite resources are helping to grow the 
economy, create jobs, and raise wages for all.
    Last month this Committee held a hearing on the President's 
2021 budget request, and I heard a lot of criticism from my 
Democrat colleagues about how the President's budget takes a 
wrecking ball to America's economic future and security. In 
fact, a senior Democrat on this Committee said that the 
President's destructive and irrational budget intentionally 
goes after working families and vulnerable Americans.
    I can tell you, as the representative of rural eastern and 
southeastern Ohio, I could not disagree more. I applaud the 
Trump Administration's proposed investments in rural America, 
including much-needed and overdue investments in rural 
broadband and telehealth services. We have seen the 
unemployment rate in my district decline by upwards of 60 
percent across the spectrum of the 18 counties that I 
represent. It is working, and it is working for rural America.
    Telehealth is a powerful tool for improving access to 
healthcare for all Americans, but especially rural Americans 
like those that I represent. As the co-Chair of the 
Congressional Telehealth Caucus, I have had the opportunity to 
witness telehealth in action in my district. Whether it is 
robots that help seniors receive care in the comfort of their 
own home, or a video conferencing tool that enables stroke 
specialists, neurosurgeons to consult with geographically 
separated doctors to give the best care possible, the 
opportunities are limitless and they are lifesaving. And I 
believe we have only scratched the surface of what it can do.
    So, Mr. Hargan, can you tell me what HHS is currently doing 
to promote and expand access to telehealth services?
    Mr. Hargan. You are absolutely right. Thank you, 
Congressman, for that. Coming from a rural--from rural 
Illinois, I understand very well what you are talking about 
there.
    Telehealth is an important aspect that we have to make sure 
that we expand access to it, particularly for rural and remote 
areas where there isn't otherwise able--where people aren't 
otherwise able to get access.
    Some of the things that we have done so far is that 
Medicare now provides--pays providers for new communication 
technology-based services, like brief check-ins between 
patients and practitioners, and also evaluation of remote, pre-
recorded images and video. So, now that we pay for that, the 
providers are going to be incentivized to actually participate 
in that. So that provides an incentive for them.
    We are also working with advanced payment models to be able 
to remove barriers to telehealth services within Medicare to 
make sure that rural and under-served areas are getting 
expanded telehealth services where there is more than nominal 
financial risk.
    We also are allowing rural health clinics and federally 
qualified health centers, which, in many cases, including in my 
own community, are where providers--where we actually have 
services provided to be distant site providers for Medicare 
telehealth, and makes the services as eligible payments under 
the Medicare physician fee schedule.
    So we have done all of those things. We are taking 
regulatory actions to be able to free up the use of telehealth 
in rural and remote settings.
    Mr. Johnson. OK. All right. Quickly, you know, I believe 
telehealth could be a critical tool to help fight off the 
coronavirus and respond to that virus. I am working with my 
colleagues on both sides of the aisle to get a provision that 
is in the Connect Back--Connect for Health Act in the emergency 
coronavirus supplemental package to give the HHS Secretary the 
authority to waive telehealth restrictions during national 
emergencies, which could help prevent a run on the health care 
system in--especially in rural America.
    So, Mr. Hargan, do you believe that waiving telehealth 
restrictions during national emergencies would benefit how HHS 
and the Administration combat the outbreak of coronavirus?
    Mr. Hargan. I believe that could be--like, providing 
greater access to telehealth in situations can be a tremendous 
help, especially because it helps relieve congestion on what 
could be overburdened local health care systems, and allows 
patients to be at home, isolated in certain circumstances, and 
still have access to professional care. So it is--I think it is 
very important.
    We would love to work with you all to provide technical 
assistance, whatever else you need, to be able to work through 
issues like that in a----
    Mr. Johnson. Well, we are working to get it in the 
supplemental. I hope my colleagues on the other side of the 
aisle will join us in trying to get that done.
    Thank you, Mr. Chairman. I yield back.
    Chairman Yarmuth. It sounds like a good idea I will say to 
my colleague from Ohio.
    Mr. Johnson. Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the Vice Chairman of the Committee, the gentleman 
from Massachusetts, Mr. Moulton, for five minutes.
    Mr. Moulton. I thank you. You know, Mr. Chairman, it is 
remarkable that my colleague across the other aisle, after five 
concerted minutes of a real decent back-and-forth between the 
deputy secretary and the representative of a district who has 
lost men and women, good Americans to coronavirus, that he had 
to start with a partisan attack on Medicare for All.
    You know, I don't personally support Medicare for All, but 
I certainly support the principle that we should be expanding 
health care access to Americans.
    And you know what? Health care budgets are going up because 
our population is growing, and we want to have more Americans 
get good health care.
    Mr. Johnson. Would the gentleman yield?
    Mr. Moulton. The deputy--no.
    Deputy Secretary, I appreciate your seriousness with which 
you are approaching both the coronavirus and your broader 
duties, because, look, there has been a lot of partisan talking 
points thrown about. I understand that the Trump Administration 
is no more responsible for the coronavirus than Corona is. But 
the Trump Administration, and your institution in particular, 
is responsible for preparing for diseases and pandemics, for 
responding to them, and for keeping Americans healthy. So I 
have a number of questions.
    Deputy Secretary Hargan, would you or your boss like to 
revise your Fiscal Year 2021 budget request for the Infectious 
Disease Rapid Response Reserve Fund, or the National Institute 
of Allergy Infectious Disease--or Infectious Diseases?
    Mr. Hargan. I think that, whatever we are--obviously, the 
President has indicated willingness to work with revisions to 
the supplemental request, and I think we are going to engage on 
all fronts in deciding exactly how the money should be 
apportioned. And----
    Mr. Moulton. Well, I hope that is a yes, because your 
budget cuts CDC's Infectious Disease Rapid Response Fund by $35 
million, a pattern that dates back to a request of exactly zero 
dollars for Fiscal Year 2019.
    Would under-funding an account in Fiscal Year 2021 that has 
already been tapped this year for coronavirus help our 
response?
    Mr. Hargan. I think we have asked for $135 million more for 
CDC's----
    Mr. Moulton. Well, I assume no, because----
    Mr. Hargan [continuing]. Infectious Disease Response----
    Mr. Moulton [continuing]. because you have--I am--you have 
asked for more, which I appreciate.
    Your budget request also reduces NIH's National Institute 
of Allergy and Infectious Diseases funding to levels below that 
which was appropriated in fiscal 2019 and Fiscal Year 2020. 
Will this improve our ability to conduct and support research 
on the coronavirus or other outbreaks?
    Mr. Hargan. I think that we will engage on the supplemental 
to decide exactly what portion----
    Mr. Moulton. But would your--will your cut improve our 
response?
    Mr. Hargan [continuing]. CDC. Well, I think we have 
advocated for at least $2.5 billion more dedicated to the 
corona response in the supplemental request----
    Mr. Moulton. Well, I am glad to hear that, frankly, you 
have the courage to disagree with the President's budget 
request. I appreciate that, because it shows that you and the 
professionals at HHS are doing their job.
    When President Trump announced that Vice President Pence 
would be his coronavirus czar, he declared that the risk of 
coronavirus to the American public, ``remains very low.'' Vice 
President Pence echoed this concern.
    Now, the World Health Organization, on the other hand, has 
warned that coronavirus could be classified as a global 
pandemic in the near future, if not today. Is WHO wrong when it 
signals potentially elevating the classification of COVID-19?
    Mr. Hargan. WHO has its own responsibilities in its 
nomenclature, and it is responsible for declaring whether 
something is, under their view, a pandemic or not.
    Mr. Moulton. So do you think they are right or wrong?
    Mr. Hargan. We will do exactly what the response is that we 
need for the American people, regardless of what the WHO says--
--
    Mr. Moulton. I understand that.
    Mr. Hargan [continuing]. or how they declare it or----
    Mr. Moulton. I understand that. Do you think that they are 
right or wrong?
    Mr. Hargan. I don't intend to oversee their operations of 
the World Health Organization. Whatever they decide in terms of 
their nomenclature, that is a----
    Mr. Moulton. So do you think this is a pandemic or not, 
Deputy Secretary?
    Mr. Hargan. I believe that the WHO has its own 
responsibility for that nomenclature----
    Mr. Moulton. Do you think that this is a pandemic or not?
    Mr. Hargan. WHO has its own----
    Mr. Moulton. No, no, we will take WHO out of it. Do you 
think that this is a pandemic or not?
    Mr. Hargan. I believe that whatever we do within the U.S. 
Government at HHS is the important thing that we focus on. It 
is providing responses to the American people----
    Mr. Moulton. Just answer the question, Deputy Secretary. Is 
this a pandemic? The American people want to know, and they 
deserve to know, and they deserve to hear it from you.
    Mr. Hargan. With response to the declaration of these kinds 
of terms by the WHO, I defer to them about----
    Mr. Moulton. No, no. I am not talking about the WHO. I am 
talking about you and HHS. Is this a pandemic?
    Mr. Hargan. The declaration of a pandemic or not, from an 
American point of view, from an HHS point of view, doesn't----
    Mr. Moulton. One more quick question. The President said 
that we are very close to having a vaccine. Is that true? Are 
we very close?
    Mr. Hargan. We are--we--I think Dr. Fauci has said that we 
are within two to three months, hopefully, of entering a----
    Mr. Moulton. Two to three months.
    Mr. Hargan [continuing]. a vaccine----
    Mr. Moulton. So we are going to hold you to that, Deputy 
Secretary.
    Mr. Hargan. That----
    Mr. Moulton. Two to three months for a vaccine.
    Mr. Hargan. Two to three months----
    Mr. Moulton. Thank you, Mr. Chairman.
    Mr. Hargan [continuing]. clinical trials.
    Mr. Moulton. I yield back.
    Mr. Hargan. So I just echo what Dr. Fauci said in his 
testimony----
    Chairman Yarmuth. You can go ahead and finish your answer.
    Mr. Hargan [continuing]. to Congress. Yes, so he had said 
within two to three months they hope to have a vaccine, 
candidate vaccine, into clinical trials. And after then we 
would enter into further phases of the vaccine. After that, in 
terms of preparation for----
    Mr. Moulton. So when can Americans get the vaccine? What is 
your estimate?
    Mr. Hargan. I think we are going to--we will see what the 
scientists, the laboratories, and the researchers are able to 
achieve. But we think that--I think, according to what we have 
been told most recently, we are going to, hopefully, have a 
vaccine earlier than we have had vaccines in the past because 
of the investments that have been made by Congress, by the 
Administration over the past years in order to prepare us for 
situations like this.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Missouri, Mr. Smith, for five 
minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you, Secretary, for being here. There is so many 
things that I would like to ask, or even to comment on.
    We are here in regards to you presenting the President's 
budget. And so let's just get some facts out there quickly, and 
that is the President presented a budget this year, that is why 
you are here. The House majority Democrats have not presented a 
budget this year. Last year, President Trump presented a 
budget. Guess what? The House Democrats didn't present a 
budget. They like to criticize the President's budget. They 
like to criticize the budget that you helped with. But they 
can't even present a budget themselves.
    And, just like Speaker Pelosi has said numerous times, a 
budget is a statement of your values. The reason why the 
Democrats can't present a budget on this Committee is because 
they can't get along, because more than half of the Democrats 
on this Committee are sponsors of Medicare for All. More than 
half of them are. The cost of Medicare for All is over $30 
trillion. That is their solution to health care, Mr. Secretary, 
Medicare for All. That would cost every household $25,000. 
Think about that. That is why they don't have a budget, because 
they can't decide whether to put that in there or not.
    I am thankful that you are here at least presenting a 
budget. I am also thankful that the Republicans, over the last 
several years, have increased NIH funding by 39 percent. I am 
also thankful that Republicans have increased funding to CDC by 
over 24 percent in the last several years. I am also thankful 
that the President has signed legislation in the last year to 
help make us better prepared for possible outbreaks like the 
coronavirus.
    However, unfortunately, what I am not thankful for is 
hearing so many folks on the other side of the aisle try to 
make coronavirus political because they hate the President. We 
have had Democrats that has called coronavirus the Trump virus. 
That is unacceptable. It is unacceptable.
    Sunday, when I was home in my congressional district, a 14-
year-old girl died of the flu in my hometown of 5,000 people, a 
14-year-old girl. Nine people have lost their lives by 
coronavirus in the state of Washington. Fifteen people have 
lost their lives from flu in my congressional district this 
year. A loss of a life is horrible. We have a vaccine for flu. 
We don't have a vaccine for coronavirus, and still people are 
dying.
    We have the best health care in this country than any other 
country in the world (sic). And I know that Americans can pull 
together and make a difference. And a lot of us don't know how 
bad coronavirus is. People may act like they do, but they 
don't. We do know flu is bad. A lot of people is losing their 
lives. I just gave you the number of how many have lost their 
lives in my congressional district alone, which is almost 
double of how many has lost their lives of coronavirus so far.
    What is unacceptable is the Democrats have been playing 
partisan games with coronavirus. They complained when the 
President asked for an increase of funding and a supplemental 
of $2.5 billion because they said it wasn't enough, and that we 
needed it fast. Guess what? Ten days ago, the President asked 
for that funding and we are still waiting for a supplemental 
bill to be filed by the House Democrats. They say they need 
more money.
    Last week, instead of doing a supplemental bill, we banned 
flavored cigarettes. Let's get our act together. The Democrats 
control this House. Let's put a supplemental on the floor and 
at least file a supplemental. I would love to see what is in 
it. Ten days. How many days is it going to be? Is it going to 
be filed today, or is it going to be a couple of weeks?
    I yield back, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. He will 
have it before the end of the day, actually.
    I now yield five minutes to the gentleman from New York, 
Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. I would agree that we 
are here to discuss budget facts. So let's talk budget facts.
    The budget proposes to cut $1 trillion to Medicaid, which 
will hurt access to about 13 million Americans. The budget 
proposes to cut about $500 billion to Medicare. The 
Administration has said, in relation to these cuts, that the 
President's budget is not an action item, it is a statement of 
priorities.
    In your biography here, Mr. Secretary, it states that as 
deputy secretary you are the chief operating officer and are 
responsible for overseeing the day-to-day operations and 
management of the Department, in addition to leading policy and 
strategy development. Are these cuts representative of the 
President and your priorities?
    Chairman Yarmuth. Before you answer, Deputy Secretary, 
could you pull the microphone closer to you?
    Mr. Hargan. Sure.
    Chairman Yarmuth. Or move closer to it. Apparently, C-SPAN 
is having--people are having trouble listening on C-SPAN.
    Mr. Hargan. Sure. So, with regard to Medicare and Medicaid, 
which I think you had--you were mentioning, there is no cut, 
year to year, in the money spent on either of these programs. 
In fact, our budget anticipates a growth in the programs every 
single year--Medicare and Medicaid, for the entire time, the 
next 10 years. So there are no actual cuts here at all.
    In fact, what we are trying to do is slow the growth of 
these programs, we hope, in a thoughtful way. For example, in 
Medicaid we took projected growth of spending from 5.4 percent 
to 3.1 percent. Now, that means that it would be roughly in 
line with the average salary increase that Americans are 
projected to have. With regard to Medicare, it is from 7.3 
percent growth to 6.3 percent growth.
    So we are anticipating growth in these programs, but we are 
trying to make sure that we are saving these programs in a 
sustainable way into the future. We know that the Medicare 
trustees have told us, as we heard earlier, 2026 is a time in 
which these--the trust fund will start to run out. The reforms 
that we proposed will extend the life of that trust fund to 25 
years, at least. And I think we have to preserve it, not just 
for today's seniors, but for tomorrow's. It is a promise to the 
American people.
    Mr. Higgins. Mr. Secretary, respectfully, the cut is 
explained in the budget detail that it would be a cut to 
providers. But those are the very providers that we depend on 
to provide access to those under the Medicare program. So a cut 
to those providers will likely result in limited access to 
those providers.
    Also in the budget, the National Institute of--Institutes 
of Health, which is a very, very important research 
institution, the largest research institution in the entire 
world, and includes many component parts that are important to 
us--the National Cancer Institute, the National Institute for 
Allergy and Infectious Diseases--there are cuts to these two 
agencies, as well. Does this represent a statement of 
priorities for the President and you, as Secretary?
    Mr. Hargan. Well, within the discretionary budget, NIH is 
and remains the single largest item that we are proposing in 
our budget. So, in terms of the priorities that this 
Administration has for its budget at HHS, NIH is our top 
priority. So it remains our number-one spending item in the 
discretionary budget. So whether it is a statement of values or 
just as a matter of fact, we are proposing a--that NIH remains 
the number-one discretionary spending item.
    Mr. Higgins. So if it is the number-one priority, why is it 
proposed to be cut?
    Mr. Higgins. Within the discretionary budget environment 
that we are in here, that NIH funding has been increasing at a 
rate that I think it is hard for our budgets to keep up with, 
we are trying to reduce federal deficits and debt, and we--and 
now I think Congress, of course, is going to decide the right 
spending level----
    Mr. Higgins. Final question----
    Mr. Higgins [continuing]. for NIH.
    Mr. Higgins [continuing]. Mr. Secretary. The President said 
earlier this year that, ``I was the person who saved pre-
existing conditions in your health care.'' The fact of the 
matter is people with pre-existing conditions have insurance 
because of President Obama's health care law, which the 
President, President Trump, is now trying to obliterate through 
the federal court.
    There is only--you know, before the Affordable Care Act, if 
you had a kid that was stuck with childhood cancer, an 
insurance company could deny you coverage because of a pre-
existing condition. You can't do that anymore. It is against 
the law. But there is only one law in America that protects 
people with pre-existing conditions, and it is the Affordable 
Care Act.
    So if you are trying to obliterate that law with a specific 
alternative to replace it, you don't support protecting people 
with pre-existing conditions. I am just curious. How do you 
reconcile that, sir?
    Mr. Hargan. So----
    Chairman Yarmuth. You may answer.
    Mr. Hargan. So with regard to that, as you know, the 
President has said that that is the centerpiece of whatever 
reform we would bring forward, and is to protect Americans with 
pre-existing conditions. And so we reiterate that, as the 
centerpiece of that. Regardless of what--if Congress has some 
reforms in mind for existing laws, we would endeavor to make 
sure that protection for pre-existing conditions is at the 
center of it, regardless of what form that takes.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from North Carolina, Mr. Holding, for 
five minutes.
    Mr. Holding. Thank you.
    Mr. Secretary, various national regulatory authorities take 
different approaches to overseeing the manufacture of drug 
products. And this is true, even among countries that are part 
of the International Conference of Harmonization, which 
produces guidelines that tend to streamline global regulations.
    Additionally, regions and countries with regulatory 
authorities that diverge from the ICH completely may contribute 
to global risk for drugs supply interruptions by diverting 
manufacturer time and attention away from establishing quality 
measures.
    So my question to you is how has the FDA worked with the 
International Conference for Harmonization and the Chinese 
Government, which is part of the ICH, to align on current good 
manufacturing practices, standards?
    And what is the impact of streamlining these standards on 
the cost of drug products?
    Mr. Hargan. Yes, thank you. And, as you--as I am sure you 
know, that--in 2008 FDA established its first foreign office in 
Beijing to promote international policy harmonization in terms 
of regulating drugs that are coming into the American market 
from China.
    So between harmonization and regulatory convergence, we 
have a China office there. It is currently working with local 
drug manufacturers on quality improvement. And that is going to 
believe--we believe that is going to help facilitate first 
cycle approval of generic drugs, which is consistent with the 
FDA's goals overall, and the record numbers of generic drugs 
that have been approved each of the last three years.
    Now, since June 2018, China has been involved with the 
International Council of Harmonization. They have been 
nominated to join the management committee. Now, that gives us 
great hope that, if China is part of the ICH in a thorough way, 
that they are going to join in those harmonization efforts, and 
we are going to be able to help facilitate their entrance into 
joining international standards, which FDA and others of our 
peer countries have been working for years on trying to 
harmonize the regulatory structure and making sure that drugs 
produced anywhere are going to have the highest level of 
quality.
    So what we have been able to see is that they are attending 
meetings, we are having conversations, sending technical 
experts to these international forums. Now, the ICH, we 
believe, has kept pace. The membership criteria for them is 
robust. So China, to get entrance into that, is going to have 
to implement a basic set of regulatory requirements for the 
manufacture of pharmaceuticals, for the conduct of clinical 
trials in China, and for stability testing of pharmaceutical 
products. So, with their entrance, they have to hit those 
requirements.
    And so, you know, we are looking forward to seeing how that 
is accomplished, which will accomplish greater quality 
improvements on things sourced in China.
    Mr. Holding. Good, thank you. Now, I have been encouraged 
by the Administration's effort to improve treatment for ESRD 
patients through the 2019 executive order, Advancing American 
Kidney Health Initiative, as well as the ESRD Treatment Choice 
model proposed last year, aimed at providing patients more 
choices through moving to dialysis at home or a transplant. 
Kidney disease has a significant impact, as you know, on 
Americans' everyday lives, and makes up more than $1 in $5 
spent by the traditional Medicare program.
    So my question, Mr. Secretary, is do you anticipate that 
you finalize the ETC model in the next few months, and can you 
speak to the savings that this model is expected to generate?
    Mr. Hargan. Yes. We are working internally on that model, 
as you know, right now. So we are--while I don't want to 
perhaps give any particular timing on that, it is obviously--
kidney health is a serious priority for the President. As you 
point out, it is about 20 percent of the spending in some of 
our programs at HHS. And it is a serious--not just a financial, 
but a physical drain on people who are in dialysis treatments. 
So we are working to stand that out.
    These are sort of--these issues, as you know, go back 
decades with regards to how we treat and reimburse patients in 
this area. In many cases it has been, I think, a galvanizing 
moment for this part of the health care sector, that we have 
new models being proposed. So we hope to have something out, as 
I say, as soon as we can, making sure that we get a thoughtful 
and successful launch of a model.
    Mr. Holding. Thank you. I have another question, which I 
will submit for the record, regarding the Pharmaceutical 
Cooperation Inspection Scheme and the mutual recognition 
agreement with the European Union and the Australia, Canada, 
Singapore, Switzerland Consortium. But I will send that to you 
in writing, as I am out of time.
    Thank you, Mr. Chairman.
    Chairman Yarmuth. I thank you.
    Mr. Hargan. Thank you.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from New York, Mr. Morelle, for five 
minutes.
    Mr. Morelle. Thank you, Mr. Chairman, very much for holding 
this important hearing today. And thank you, Deputy Secretary, 
for--I know, it is hard to find where we are, right?
    Mr. Hargan. Yes.
    Mr. Morelle. Thank you. I am over here. And thank you, 
Deputy Secretary Hargan, for being here.
    Mr. Secretary, as you may be aware, in November of last 
year the Department of Health and Human Services denied the 
state of New York's request to renew its delivery system reform 
incentive payment called DSRIP, for short. It had a waiver. We 
wanted to extend it past March, and that has been denied.
    DSRIP is a Medicaid redesign program dedicated to 
fundamentally restructuring the health care delivery system by 
reinvesting in the Medicaid program with the primary goal of 
reducing avoidable hospital use by 25 percent over five years. 
So the idea is, rather than using sort of a slash and burn 
technique to cut health care costs, DSRIP provides a 
comprehensive and sustainable approach that takes preventive 
measures to identify the needs of our most vulnerable 
population before treatment becomes incredibly costly. And much 
of that involves the social determinants of health.
    For example, suffering from congestive heart failure is 
expensive, obviously frightening, and requires regular medical 
attention. If you add to that the question of stable housing 
for the patient, and you add that into the equation, you really 
are now dealing not only with extensive concerns that you might 
have about your health, but you are also having to do it while 
you are worrying about whether you have a roof over your head, 
working to keep food on your table, paying for prescription 
drugs, et cetera, et cetera. And simply getting to a doctor's 
appointment becomes a--both a physical and emotional and 
financial drain and challenge. So--and you are forced not to 
choose simply between your immediate stability, but also your 
long-term health and the cruel and unsustainable situation that 
it puts people in.
    So DSRIP funds programs that New Yorkers and patients 
throughout the country who have complex medical issues--allows 
them to address those needs. The dollars were allowed under the 
federal waiver to assist people with complex affordable housing 
issues, arrange medical transportation, and dealt with things 
like opioid addiction, childhood asthma, a whole host of 
programs and projects that were undertaken by the various DSRIP 
provider networks throughout the state.
    Since the implementation of it, hospital admissions have 
been reduced by 21 percent among the Medicaid population that 
was targeted, and preventable readmissions reduced by 17 
percent, according to numbers that I have from June 2018, the 
last data that is available.
    This budget cuts Medicaid, it stops the waiver program. And 
in effect, in my mind, while you can get short-term gains 
perhaps in terms of financial gains, the outcomes are going to 
be dramatically reduced and, in fact, cost us, long-term, far 
more money, money that people in the health care field are 
often trying to get to the quadruple aim, which is better 
outcomes, bending the cost curve down, having improved patient 
experience, and improved provider experience.
    And I am very, very troubled that this budget doesn't take 
into account many of the advances that are made toward 
achieving the quadruple aim and using social determinants to 
achieve better outcomes. And I want to know whether or not the 
Department would reconsider New York's DSRIP waiver 
application.
    Mr. Hargan. With regard to the particular waiver 
application, we can certainly talk to you after this. But I 
wanted to talk a little bit about social determinants of 
health.
    I think we completely agree that these are issues that we 
have tried to stand out on in terms of developing thoughtful 
policies dealing with those. We know that, in many cases, they 
can be very helpful to people, and can help avoid some of the 
hospitalizations, some of the further medical problems that 
take place down the line, that there are--and some of the 
flexibilities that we have tried to allow people to have in 
spaces for plans to be able to work them into their own plans, 
we think, is very helpful.
    Some of the things like the Stark and anti-kickback reforms 
that have been proposed would allow social determinants of 
health to be worked on, among----
    Mr. Morelle. So----
    Mr. Hargan. So some of the regulatory----
    Mr. Morelle. Yes.
    Mr. Hargan [continuing]. reforms are very much aimed in 
that direction.
    Mr. Morelle. Well, let me--and I appreciate that. I would 
suggest this, and I apologize because I only have just a few 
seconds left, and this is probably less in the form of question 
than just a comment on it. I would suggest that, in the short 
term, the next 36 months, that we would have to make 
significant new investments in Medicare and Medicaid to have 
real redesign of systems that allow for the longer-term 
changing of the cost curve down and improving those outcomes 
dramatically.
    And I would like to work with the Department on thoughtful 
ways to increase investments to have longer-term savings, 
again, improve outcomes, avoid admissions, avoid re-admissions, 
and improve patient experience and those of providers who are 
struggling under shortages to deal with the stresses of their 
job.
    So I appreciate you being here, and I would like to 
continue the conversation, if we can, offline.
    Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from South Carolina, Mr. Norman, for 
five minutes.
    Mr. Norman. Thank you, Chairman Yarmuth.
    Mr. Secretary, thank you for coming. Before I ask my 
question, I would like to yield 60 seconds to Congressman 
Stewart.
    Mr. Stewart. Thank you, Mr. Norman. And I won't take 60 
seconds, being respectful of your time.
    Mr. Deputy Secretary, thank you for being here. I did have 
a question, but many of us are trying to de-conflict schedules 
here, and I can't stay.
    There is a company in my district called Navigant. I am 
aware of other companies, as well, that think they have 
solutions, or partial solutions, or potential solutions 
regarding the coronavirus. And I am sure you are aware of some 
of these.
    What I would like to do is just submit, in writing, for the 
record, the agency's plan to develop and to leverage these 
public-private partnerships. Very clearly, the answer is going 
to come from some private company somewhere. Are we--do we have 
a highway, a way of integrating with these companies, and to 
get the information from them that otherwise--you know, in a 
very time-sensitive manner?
    And again, we will submit that for the record.
    Mr. Hargan. Yes.
    Mr. Stewart. Thank you, Mr. Norman.
    Chairman Yarmuth. May I ask the gentleman, do you have 
something you want submitted for the record?
    Mr. Stewart. Yes.
    Chairman Yarmuth. OK.
    Mr. Stewart. If we could.
    Chairman Yarmuth. I couldn't quite figure out whether you 
wanted him to submit something in response----
    Mr. Stewart. No, my--if I misspoke, I apologize.
    Chairman Yarmuth. That is all right.
    Mr. Stewart. Thank you.
    Chairman Yarmuth. Without objection, so ordered.
    Mr. Stewart. Thank you.
    Mr. Norman. Thanks.
    Deputy Secretary, one of the most frequent calls I get is 
pricing for pharmaceuticals. ``Why is my insulin price so 
high?'' Why is a particular type drug--what--PBMs are of great 
interest to me. The spread pricing that--where they reimburse 
pharmacies one price, charge the state an astronomically higher 
price, what can--I guess--can you give me a road map for what 
you consider a way to bring a light to that to help our 
consumers?
    Mr. Hargan. Well, as you know, the President has made 
bringing down the cost of pharmaceuticals one of the keystones 
of what we are trying to do at HHS, and put out--early on in 
Secretary Azar's tenure we put out a blueprint addressing drug 
pricing, which had dozens of different proposals that we are 
standing out, in terms of addressing drug pricing.
    The--some of the things that we have done--one of the 
things that we have done just internally at the Department is 
the fact that the generic drug approval rate has gone up to 
record levels. We have also had high numbers of innovator drugs 
that have been approved. All of those things, just kind of--of 
their nature, by producing competition, produce lower costs for 
Americans.
    So we have seen drug prices--and Americans use generics in 
large numbers. So we have seen prices lower as more generics 
come online. That is a huge help, and that just happens in the 
day-to-day business of the Department, but now at record 
numbers, thanks to some of the reforms that were put in place.
    On top of that, we have other proposals, things like the 
direct-to-consumer rule that has been put out that says--that 
shows people the prices that they are going to be charged. We 
think that would have some effect on drug prices, as well.
    We also are very happy to engage on drug pricing proposals 
that Congress has put forward to move forward on a bipartisan, 
bicameral basis, to have legislation that can enable Americans 
to get lower prices for drugs. We have endorsed a number of 
different areas in that space. However, we know that Congress 
has a lot of different potential proposals in here, and we 
would be happy to work with people here on that basis to bring 
forward good legislation in this area.
    Mr. Norman. Well, I appreciate it. You know, when I--when 
you get calls from those widows whose child has been diagnosed 
with diabetes, and the question is, ``How can afford the 
insulin,'' because the alternative of her dying, it has an 
impact on you.
    Mr. Hargan. Yes.
    Mr. Norman. So--and I appreciate the Administration's goal 
to keep the focus on that. And it is real, I can tell you, in 
the real world.
    Mr. Hargan. Yes. Yes, absolutely. And, you know, we have 
done some reforms. Part D premiums have come down over 13 
percent in the past few years. So you are seeing the impact in 
areas on there. That doesn't mean that we stop, just because we 
have had some successes in bringing down premiums and bringing 
down prices. We still have areas where we need to focus.
    And, you know, insulin is one of the areas that--we hear a 
lot of public testimony on that very issue. So we are committed 
to working with Congress on these issues.
    Mr. Norman. Well, I appreciate it. And insulin is one--is--
the question I had from my--from the person who called me was, 
``This has been--people have had diabetes for a long time. Why 
is the drug that should be a lot cheaper than it is, why am I 
having to pay the price that I am?''
    I have got 30 seconds. What about--I have got a lot of 
rural communities with sovereign Indian tribes. Access to 
health care, what is your take--opinion on getting them easily 
accessible medical care?
    Mr. Hargan. So with regard to rural areas, we have a lot of 
different proposals. The Secretary, about a little over a year 
ago, put together a rural health task force internally at the 
Department. And so we have been working to get together a 
package of proposals to work on with regard to rural health.
    So expanding access in there is going to take both the 
areas technologically, like telehealth, which we have talked 
about already, but also being able to have a good work force in 
the area, where people can practice to the top of their 
license, and we have access to care, both on the service side 
as well as the technological side. Both of those areas are 
going to require reform.
    We--some of it is going to require reimbursement reform, 
and we have advocated for some of that, and have enacted some 
of that, but it is going to require a--probably a longer 
conversation. Fifty-seven million Americans live in rural 
areas. They have--there is a disparity between rural America 
and non-rural America, in terms of the health care that they 
get on basic things like heart disease and cancer.
    So--and we are going to have to move to a model that is 
going to enable rural Americans like myself, as I grew up, to 
have access to care, to have access to quality care that they 
deserve. And some of that is going to be, as I say, 
technological. Some of it is going to be work force development 
that is going to enable us to move forward into a new model of 
rural health care that is going to allow Americans to get 
better care.
    Mr. Norman. Thank you for your service.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Nevada, Mr. Horsford, for five 
minutes.
    Mr. Horsford. Thank you very much, Mr. Chairman. And thank 
you, Deputy Secretary, for being here today.
    I want to point out just before I begin, several of my 
colleagues throughout this morning have talked about the budget 
and the President's budget proposal, the congressional budget. 
But I just want to reiterate that there are budget cap 
agreements in place through 2021 that have been agreed to with 
the Senate, with the House, and the Administration. In fact, 
the Ranking Member of this Committee and member--many members 
on the other side voted for those budget caps. So I know we get 
a lot of misinformation from the White House, but I just wish 
that we would not bring that misinformation into this Committee 
setting.
    Mr. Deputy Secretary, last week your boss, Secretary Azar, 
came before the Ways and Means Committee, and I asked him about 
the Administration's proposed $52 billion cut to the graduate 
medical education program. Today these cuts would have 
detrimental impacts on my home state of Nevada, where we need 
more physicians, not drastic cuts to the very program that 
trains and retains our doctors, particularly in this 
environment with the coronavirus, where some of our doctors who 
are being exposed are no longer available.
    So my question to you specifically related to this is 
Nevada ranks 48th in the nation for primary care doctors. We 
have about 180 full-time doctors in southern Nevada per 
100,000, compared to over 303, on average. And in certain parts 
of my district I, literally, don't have an adequate number of 
OB-GYN providers. We have 259 in the entire state of Nevada.
    So what is your take on the proposed $52 billion of cuts to 
the GME program?
    Mr. Hargan. Well, I think that the point that you made 
about the lack of OBs, for example, I was--my parents are--and 
I am--from southern Illinois, but I was born in Missouri 
because there wasn't even an OB available in rural southern 
Illinois at that time. So----
    Mr. Horsford. So why is the Administration cutting the very 
program that trains more doctors, including OB-GYNs?
    Mr. Hargan. One thing that we have done is, by turning this 
into a more flexible block for GME, we have incorporated a lot 
of the GME money into a single program. That is going to 
allow----
    Mr. Horsford. Reclaiming my time, because that is the exact 
statement that the Secretary gave me in the other committee. 
And somehow he argued that cuts to a critical training program 
would be good for states like mine. And that simply is not 
true.
    Not only would my state lose funding for new doctors under 
this budget, the plan outlined in your budget would hurt the 
630,000 Nevadans who are covered by Medicaid. Both the American 
Academy of Family Physicians and the American Medical 
Association put out statements opposing the Administration's 
proposal, and have warned that it would lead to significant 
benefit cuts, would require states to limit the number of 
beneficiaries receiving coverage, and it would put vulnerable 
populations at greater risk.
    We are a growing state. Putting us into a block grant 
program and calling it flexibility doesn't work. So I am 
unclear. How does a proposed flexible fund, which is just a 
block grant program, and which adds no additional funds to the 
training of doctors in my state or any others, how does that 
help constituents have access to more doctors?
    Mr. Hargan. So when you talk about exactly what GME has 
done so far, we haven't had a real revision of this law in 
terms of, like, what types of doctors that it funds since, I 
believe, 1996 or 1997----
    Mr. Horsford. So will you work with us on that?
    Mr. Hargan. Yes.
    Mr. Horsford. To address the need to diversify the revenue 
that funds the GME program?
    Mr. Hargan. I think that----
    Mr. Horsford. So that we are not just relying on CMS 
funding?
    Mr. Hargan. Yes, and I would say that one thing that we are 
trying to do here in the reform is to move it out of being 
funded by the Medicare Trust Fund, which we think is a place 
where seniors are actually using some of the Medicare money 
that has been set aside for them to fund GME, which, in many 
cases, funds doctors that aren't actually Medicare doctors----
    Mr. Horsford. So you agree to work with us to come up with 
a more robust GME program so that we can train more people, and 
meet the needs of our constituents that need to see doctors?
    Mr. Hargan. And update the GME program, so it represents--
--
    Mr. Horsford. Is that a yes?
    Mr. Hargan. Yes, we would like to work with you.
    Mr. Horsford. Great. The Administration also proposes a 
nearly $1 trillion cut to Medicaid over 10 years. How will 
these compounded cuts impact my constituents' ability to lead 
healthier lives and access physicians that they need?
    Mr. Hargan. We think there won't be any cuts to Medicaid at 
all. There will--every year there will be an increase in 
payments in Medicaid. We anticipate all that we are doing here 
is putting in place reforms that are going to slow down the 
rate of growth to make sure----
    Mr. Horsford. Slow down the rate of growth in the effect--
--
    Mr. Hargan [continuing]. it is a sustainable program.
    Mr. Horsford. In effect, cuts $1 trillion over 10 years. 
Let's be honest with what it does. We get a lot of 
disinformation and misinformation. Let's not continue to do 
that in this Committee.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Tennessee, Mr. Burchett, for five 
minutes.
    Mr. Burchett. Thank you, Mr. Chairman, Mr. Ranking Member. 
Although our Ranking Member has decreased in age, he has not 
increased in good looks, and I would like to state that for the 
record.
    Thank you, Mr. Hargan, for being here today. And I would 
like to ask about--focus on Medicaid as it is today in 
Tennessee.
    Do you think Washington or state governments are better 
equipped to design programs that are best suited to their 
individual state?
    Mr. Hargan. The states, obviously. That is the whole 
premise of the Medicaid program, is that the states run the 
programs for their own populations.
    Mr. Burchett. Great. As you know, my home state of 
Tennessee is the first state to convert our current Medicaid 
program, TennCare, into a block grant. What would the impact of 
this budget have on this new direction my state is going?
    Mr. Hargan. Well, we are, I know, looking--working with 
Tennessee on their proposal and what they have done. And, 
again, Medicaid rises every year. The amount of money that is 
set aside for Medicaid in this budget goes up every year. So we 
would anticipate that the money would go up for Tennessee, and 
that those flexibilities that would be available under any 
proposal are there for Tennessee to--for its own population, 
and for the needs that they see locally for their state.
    Mr. Burchett. OK. I have no more questions, Mr. Chairman. I 
will yield back the remainder of my three minutes and 32 
seconds.
    Chairman Yarmuth. Thank you, sir.
    Mr. Burchett. You are welcome, sir.
    Chairman Yarmuth. I won't even say your time has expired. 
You yielded it back.
    I now yield five minutes to the gentlewoman from Illinois, 
Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Deputy Secretary Hargan, when President Trump ran for 
office, he made a promise. He said, ``I am not going to cut 
Social Security like every other Republican, and I am not going 
to cut Medicare or Medicaid.'' However, in almost every one of 
the budgets that he has released since taking office he has 
proposed slashing hundreds of billions of dollars from Medicaid 
and Medicare and Social Security. For Fiscal Year 2001 (sic) 
you have proposed cuts of half-a-trillion dollars from 
Medicare, almost $1 trillion from Medicaid, $25 billion from 
Social Security.
    These programs keep seniors, individuals with disabilities, 
and their families alive. And they are critical as we battle 
coronavirus right now. Medicaid covers the care of six in 10 
nursing home residents, who are often older and living with 
chronic medical conditions putting them at high risk, as we 
have seen in Washington State.
    While your Administration recently requested $1.2 billion 
in new resources to fight coronavirus, the supplemental request 
did not address $900 billion in cuts to Medicaid and--from--as 
was in the original proposal.
    So you may say that you were unaware of the coronavirus in 
scope when you wrote that budget. But clearly, we have a 
problem right now. So what steps or policies are you taking to 
reduce the spread of coronavirus among nursing home patients, 
which is a boiling question right now, or other vulnerable 
populations who live in a congregate residence setting?
    Mr. Hargan. Thank you, Congresswoman. We are, right now, as 
Dr. Schuchat of CDC mentioned, Administrator Verma, who 
oversees nursing homes, has appointed a liaison to work with 
CDC to make sure that CDC's practices and nursing homes are 
brought directly into CMS. So they are working closely on the 
issue about nursing homes. As we had seen from Washington 
State, that is an issue of the highest priority.
    Because this--because the disease, from what we have seen 
so far, really afflicts particularly those who are both elderly 
and medically frail, that is why we need to make sure we focus 
on that, as Dr. Fauci said.
    Ms. Schakowsky. So are you regretting, I hope, that--this 
almost $1 trillion cut in Medicaid at this very moment, when 
six out of 10 people in nursing homes require help from 
Medicaid?
    Mr. Hargan. Well, there are no cuts to Medicaid in the 
budget. Every year the money--the dollars to Medicaid go up 
every year in this budget. Same for Medicare. We are simply 
talking about decreasing the rate of growth to an amount that 
the average American's wages go up every year, as we expect.
    So if we reduce those, what we are doing is preserving it 
for future Americans. The Medicare trustees tell us the 
Medicare Trust Fund is going to start running out of money in 
2026----
    Ms. Schakowsky. You are talking about Medicaid.
    Let me finally--over the past two weeks I urged Secretary 
Azar, by a letter that was signed by 45 other Members, to 
ensure that the coronavirus vaccine or treatments that may be 
found will be affordable, accessible, and available.
    And just yesterday President Trump met with the--with a 
group of pharmaceutical executives. And so I am wondering, do 
you have any update on the arrangements that have been made 
with the pharmaceutical corporations and other private-sector 
partners around licensing and pricing of the COVID-19 vaccine?
    Mr. Hargan. Well, we--as you point out, we are working with 
the private sector to develop and test a COVID-19 vaccine. 
Government scientists invented some of the vaccine's critical 
aspects, and we intend to work with the companies to ensure 
that the price they charge the government for the vaccine is 
affordable for taxpayers and patients, as well.
    Ms. Schakowsky. Thank you, and I yield back.
    Chairman Yarmuth. The gentlewoman's time has expired. I now 
recognize the gentleman from Pennsylvania, Mr. Meuser, for five 
minutes.
    Mr. Meuser. Thank you, Mr. Chairman.
    Thank you, Deputy Secretary Hargan, for being with us. I 
represent a relatively rural congressional district, and I have 
concerns related to CMS's so-called competitive bidding 
program, particularly related to rural areas.
    CMS issued an interim final rule in May 2018 that provided 
payment relief for durable medical equipment in rural areas, 
and has continued the relief until the end of 2020. Mr. 
Secretary, can you tell me if CMS plans to continue this relief 
in rural areas after 2020?
    Mr. Hargan. Well, we do know that we are in the bidding 
process right now for the competitive bidding program, and that 
we--as you pointed out, with the IFR that was issued we 
granted--there was some granting of relief by the agency on 
that. We are hoping that this is going to alleviate a lot of 
the problems that are faced by suppliers in that area.
    We do know that there are issues in rural areas where the 
number of suppliers continues to decline in that space, which 
creates particular issues for competitive bidding in rural 
areas. So I think we look forward--we are going to be 
continuing to work in this area to figure out how to come up 
with solutions for rural areas that have declining numbers of 
providers in this area of DME.
    Mr. Meuser. Well, that is excellent to hear. I spent quite 
a number of years in the medical equipment industry, and I 
feel, as many do--and I think stakeholder groups and consumer 
groups--that very often competitive bidding is very much of a 
misnomer. It is really more of the lowest price, regardless of 
quality, patient choice, who the supplier might be, provider or 
supplier standards, and distance to travel usually is not often 
enough taken into consideration.
    So when any--and it sounds like you know a thing or two 
about it, which is encouraging. Before any such decisions are 
made, you do plan on having a stakeholder input?
    Mr. Hargan. So with regard to winding CMS and issues like 
this, it is definitely being considered by the Rural Health 
Task Force that we have drawn together. That looks at, sort of, 
rural health and the problems that are faced by it from the 
point of view of all of our agencies, including CMS, including 
HRSA, the Indian Health Service, and others that deal with 
these--that deal with the issues of getting rural access to 
care. So DME is one of those issues. Obviously, CMS has taken 
action on this to provide relief, but we are looking forward to 
getting a comprehensive package of reforms together in this 
area, and getting them out.
    Mr. Meuser. Again, very encouraging. That is good to hear.
    In the 2021 budget there is a provision that would expand 
the competitive bidding program for DME into rural areas in 
2024. Is this something that you believe CMS plans to move 
forward with----
    Mr. Hargan. Well----
    Mr. Meuser [continuing]. without congressional approval? 
Can you tell me anything more about that?
    Mr. Hargan. So I think, as of now, we are planning on 
basing competition on the rural areas, rather than on urban 
areas, which we think is probably better representative of what 
the conditions are in those areas. So we think that that has 
attempted to de-link in some ways the competition from areas 
that probably were inadvertently providing issues for rural 
areas.
    So--but we would look forward to further engagement from 
the community on this, as we move forward, as I say, with an 
overall package on rural health care reform.
    Mr. Meuser. Thank you, Secretary.
    Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentleman yields back. I now--you 
ready?
    I now recognize the gentlewoman from Texas, Ms. Jackson Lee 
for five minutes.
    Ms. Jackson Lee. Excuse me, Mr. Chairman, thank you. Thank 
you very much.
    And to the Deputy Secretary, I appreciate you being here. I 
just came from the airport in light of some civic 
responsibilities on Super Tuesday.
    And so I am just coming from home, where people are 
grappling with the coronavirus. I think you are well aware of 
what people who are beyond the Beltway are thinking.
    I want to ask specifically the issue of your proposal 
originally to cut CDC's discretionary budget by nearly one-
fifth and its overall budget by 9 percent, or $700 million. If 
enacted, how would these cuts affect the CDC's ability to 
respond to the future global epidemics?
    Now, let me say that I know that budgets are prepared over 
a long period of time. But I also know that it was not 
finalized before there was an indication that there was a major 
epidemic in China. And I am baffled how the Administration 
could send forward a budget that would do such drastic things.
    I also want to--let me match this question of how did the 
HHS--so these are two together--determine that that amount was 
sufficient, the $1.25 billion was sufficient to fully address 
the scale and seriousness of the coronavirus epidemic?
    And what activities would HHS not be able to carry out, if 
that $535 million were repurposed?
    Mr. Hargan. Thank you for that. The cuts that you talked 
about that were indicated, they were--we actually increased the 
funding for infectious disease response at CDC by $135 million. 
So we had actually already increased funding for these specific 
areas in the budget that was proposed. So CDC's funding would 
go up this year----
    Ms. Jackson Lee. But only in the infectious diseases area.
    Mr. Hargan. And that is the area that we would use for the 
coronavirus----
    Ms. Jackson Lee. Right.
    Mr. Hargan [continuing]. issue that you indicated----
    Ms. Jackson Lee. But that is not all that they do. I did 
ask a specific question. But go ahead, let me let you finish.
    Mr. Hargan. Yes. And with regard to the $2.5 billion 
supplemental that was brought forward last week by the 
Administration, we--as the President said, we are open to 
discussions with Congress about this. I think he said very 
specifically about that. So, with regard to the number that 
Congress proposes on that, we are absolutely willing to work 
with you all flexibly on that front.
    Ms. Jackson Lee. Mr. Deputy Secretary, with all due 
respect, don't you think it was somewhat derelict for the 
Administration even to think about reducing funding for CDC and 
NIH? And I think it was a combination of $3.58 billion and then 
another $658 million, if my numbers are correct, for the NIH. 
Don't you think that was not responsible, in light of the fact 
that you had the backdrop of the issues dealing with the 
coronavirus?
    Mr. Hargan. Well, NIH is the largest element of our 
proposed budget in discretionary spending. So it is--and by 
far. So, in operating within the budgetary environment that we 
have, we had to approach it with the point of view of 
prioritizing the areas that the--that NIH wanted to prioritize, 
things like artificial intelligence and other areas that they 
were standing forward. But it is the largest element of a 
discretionary funding.
    When we are in a situation where we have to give thoughtful 
reforms to our discretionary budget lines, NIH, as the largest 
element, naturally ends up with some reductions. But with 
regard to infectious disease, we have definitely already--in 
that environment, already increasing the funding for the 
elements of CDC that would provide response.
    Ms. Jackson Lee. My time is running quickly. Let me ask 
this question again.
    Life expectancy before the passage of the Medicare 
legislation was 70 years and, after that, 72 years and growing. 
What came over the Administration to have a $1.7 trillion--I 
think that is the number--cut in Medicare and Medicaid?
    And the President made a very loud proclamation as he was 
running that he was prepared to work very hard to help with the 
decreasing of prescription drug costs. We have seen no efforts 
on behalf of the President at this time and in HHS to do so. 
And they are certainly not advocating for H.R. 3.
    What is your reason for the huge cuts that will go to my 
constituents and others across the nation in Medicare and 
Medicaid, and--as well, doing nothing about lowering the cost 
of prescription drugs?
    Mr. Hargan. We are projecting increases every year in 
Medicare and Medicaid in dollars spent in these programs every 
single year.
    Ms. Jackson Lee. I am sorry, I didn't hear that. What did 
you say?
    Mr. Hargan. We are projecting increases in dollars spent in 
Medicare and Medicaid every single year, including the upcoming 
year, and every year for the next 10 years within the budget, 
within the budget cycle.
    What we have proposed is what we hope are thoughtful 
decreases in the rates of growth of both of these programs so 
that they don't grow as quickly. Part of that is what we want 
to do to create--make sure that the promise of these programs 
that we all agree on, Medicare and Medicaid, are available to 
future generations of Americans. We don't want the Medicare 
Trust Fund to run out in six years, as is projected. We want it 
to be available, we believe on current projections we will get 
25 years out of the Medicare Trust Fund.
    So at some point we have to do--make some reforms----
    Ms. Jackson Lee. Can you move to the prescription drugs 
inactivity?
    Mr. Hargan. Sure. Part of the way that we have tried to 
reduce the cost of drugs is actually internal to the 
Administration. By increasing the number of generic drug 
approvals, that lowers the cost of drugs overall. The more 
generics we have out there, the more Americans have access to 
generic drugs that are far lower in cost.
    We get--we also have increases in the number of innovator 
drugs that compete with existing drugs out there. So those also 
help reduce the cost there.
    We have--the drug pricing blueprint has dozens of proposals 
that the Administration has stood forth, or is planning to 
stand forth to reduce the cost of drugs. It is a centerpiece of 
what the President wants to do for Americans. And we look 
forward to working with Congress, on a bipartisan, bicameral 
basis, to bring forward legislation that addresses this issue.
    We agree with you, it is a top issue of mind for----
    Ms. Jackson Lee. Chairman, I just have a question. I know 
that my time has ended.
    Chairman Yarmuth. No----
    Ms. Jackson Lee. I just want to ensure that we can dig deep 
in the $1.7 trillion cut and why there has been no direct 
response to the legislation that has been offered by this 
Congress on lowering prescription drugs.
    Chairman Yarmuth. Duly noted. The gentlewoman's time has--
--
    Ms. Jackson Lee. I yield back, thank you.
    Chairman Yarmuth [continuing]. expired. I now recognize the 
gentleman from Texas, Mr. Roy, for five minutes.
    Mr. Roy. I thank the Chairman very much. Mr. Hargan, thanks 
for being here.
    The reason there has been no response to H.R. 3 is because 
it would devastate innovation. It would destroy the ability of 
the market to produce the drugs that are saving lives 
throughout the country, including the drug, for example, that 
helped save my life when I was going through cancer at MD 
Anderson. I think we want to make sure we promote a market 
where we can have the kinds of drugs that are saving lives and 
not destroy it, which is exactly what H.R. 3 would do.
    With respect to spending, I would like to ask you to repeat 
again. Is there a single decrease in Medicare or Medicaid 
expenditures in the proposed budget from the President of the 
United States?
    Mr. Hargan. There is--there are increases in Medicare and 
Medicaid----
    Mr. Roy. Correct.
    Mr. Hargan [continuing]. every year in the proposed budget.
    Mr. Roy. Thank you. And can you tell me the amount that is 
proposed for CDC spending in the House Democrats' proposed 
budget?
    Mr. Hargan. I don't know that I have seen a proposed 
budget.
    Mr. Roy. You haven't seen a proposed budget from House 
Democrats. Yes. That is what I think. There is no proposed 
budget from my House Democrat colleagues. They want to take pot 
shots at the President's budget, when the budget proposed by 
the President is increasing spending on Medicare and Medicaid, 
yet will not do the hard work of putting pen to paper to 
actually put forward a budget. That is the reality of what we 
are dealing with here in this room today.
    And so, with respect to the President's budget, and we are 
talking about savings, you are talking about spending going up 
on Medicare and Medicaid. Now, why is this a problem?
    Health care costs are significantly driving our deficit 
spending. Would you agree?
    Mr. Hargan. Yes.
    Mr. Roy. So in 2019 we had $1.5 trillion in Medicare, 
Medicaid, SCHIP health care spending. Proposals I have seen, or 
projections I have seen, by 2030 we would have $2.5 trillion of 
that same spending. Does that sound right to you?
    Mr. Hargan. I would have to look the numbers over, but yes, 
they are--the numbers are enormous.
    Mr. Roy. There is a massive increase going up.
    Mr. Hargan. Yes.
    Mr. Roy. In 1970 mandatory health care spending was 0.8 
percent of GDP. In 2020 it is 5.4 percent. In 2030 it is 
projected to be 7 percent of GDP. We have to be--have serious 
proposals in this body to deal with these issues, and I 
appreciate that the President and HHS has put forward a budget 
that tries to approach balance, even though it assumes 3 
percent economic growth and low interest rates.
    But you have to have strong economic growth in order to 
drive out of this. Yet right now what we have is a bunch of 
political shots being taken in this Committee for no value for 
the American taxpayer, for no value for our American citizens. 
We are not sitting down and rolling our sleeves up to figure 
out what to do about Medicare and Medicaid. We are on a train 
heading to a cliff, and we all know it. Yet we sit here and do 
nothing about it.
    And my Democratic colleagues refuse to put forward a 
budget, and take pot shots at the President's budget, which 
balances, increases dollars for Medicare and Medicaid, and then 
has cost savings. Let's talk about the cost savings.
    GAO just had a report that came out the other day about 
$175 billion of improper payments, of which $103.6 billion were 
from Medicare and Medicaid. Are those the kinds of savings you 
are looking to try to achieve to keep overall spending down, 
but yet preserve Medicare and Medicaid?
    Mr. Hargan. Yes, we are looking at improper payments, 
waste, fraud, and abuse, broadly across our programs. That is 
an important element of this, for us to be able to reform these 
programs.
    Mr. Roy. One thing I would like to point out with respect 
to pre-existing conditions. Somebody was making a comment 
earlier about how the President doesn't seem to be concerned 
about pre-existing conditions. You answered that question, I 
think, appropriately.
    I would note that I saw a report today in social media that 
investors see the bump in Vice President Biden as stability, 
and that we wouldn't necessarily get Medicare for All. But here 
was the little important footnote, that it will keep insurance 
and pharmaceutical stocks fat, because what Obamacare really 
is, and what the ACA really is, is the make-insurance-
companies-richer bill. It is keep allowing insurance companies 
to run our health care, because that is what Obamacare is 
really doing, shoving millions of people on Medicaid, putting 
more decisionmaking in the hands of insurance companies to run 
our health care, and then everybody pat themselves on the back 
while they drove people out of the individual market, increased 
prices 60 percent across the market, double--triple the 
premiums for people in the individual market.
    That is the legacy of Obamacare. That is the legacy of 
putting more power in the hands of the federal government 
deciding health care decisions.
    Mr. Secretary, let me just make one point about the 
coronavirus, if you would. I had a great conversation over at 
ASPR with Secretary Kadlec, but I did have one troubling--I 
represent San Antonio. And one troubling take-away from our 
conversation was I saw no plan on what to do with the citizens 
who were flown to San Antonio. In other words, there was an 
assumption by DoD and HHS that citizens that were flown to San 
Antonio into the bases at Lackland would then be put into 
civilian hospitals in San Antonio.
    Then we had the CDC release an individual who we know who 
had been exposed, and had exhibited symptoms, and had tested 
positive, and was prematurely released, endangering some of the 
citizens of San Antonio.
    Can you please offer me some assurances that we are on top 
of this, that CDC will not make an error like that again, and, 
most importantly, that the citizens of San Antonio will be 
consulted prior to decisions being made about how people are 
going to be released into our communities?
    Mr. Hargan. So, with regard to the CDC protocols, they have 
looked at that particular case, where they--they had followed 
the existing protocols, which said that you have to have, you 
know, the existing amount of time be spent in the quarantine. 
Plus, there were two negative tests. She had received two 
negative tests, but there was a pending test outstanding. They 
hadn't been sequential.
    So she was released. It turns out that that positive test 
was not--I don't believe it was accurate. And so there wasn't a 
problem, as it turned out to be.
    However, they have revised their protocols----
    Mr. Roy. Yes.
    Mr. Hargan [continuing]. so that the negative tests will 
now be sequential.
    And then also, if there is a pending test, that somebody 
won't be released until that pending test result is received. 
So that should manage this around the particular issue that was 
received there.
    So, other than that, the protocol was followed, globally 
agreed, 14 days of quarantine for the people who came over.
    With regard to the use of the DoD facilities, I spoke 
myself to the mayor, also to some of the local leaders at--in 
San Antonio to talk through whatever concerns that they had. So 
we have been trying to do outreach to local leaders, whether it 
is senators, city councilmen, local leaders of any kind, and we 
are going to continue. We are going to continue to do that.
    We are also talking to Congressmen and senators at places 
where there are--but as we move into the next phase of what we 
are going to be dealing with with coronavirus, I don't know 
that we are going to anticipate the same kinds of issues that 
you are pointing out there, with regard to the bases.
    Mr. Roy. And Mr. Chairman, with your indulgence, I just 
want to thank the Secretary and thank you for your 
responsiveness, generally, at HHS. I can't say the same about 
DoD, by the way.
    Secretary Esper, if you are listening, I am still waiting 
on a response.
    But thank you for that input. Thank you for reaching out to 
San Antonio. Just keep in mind it is important to have that 
plan ahead of time, to know--don't assume we are going to put 
them in civilian hospitals. San Antonio is happy to be at the 
center of trying to deal with natural emergencies and help our 
fellow American citizens. Bring them to Lackland, that is 
great.
    Mr. Hargan. And----
    Mr. Roy. But let's just have a conversation if we are going 
to assume they are going to civilian hospitals.
    Mr. Hargan. Yes.
    Mr. Roy. Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from California, Mr. Khanna, for five 
minutes.
    Mr. Khanna. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here. My district in 
Santa Clara County, California, has 11 cases now of 
coronavirus. And so I want to ask you a few questions to see 
how we can work together to solve this. That is the only thing 
that people care about.
    First, I am concerned that CDC has stopped reporting the 
number of tests they are doing on their website. Do you know 
why that is? And can we get CDC to start reporting on their 
website again the total number of testing?
    Mr. Hargan. Well, I think that, with the dispersal of 
testing to a lot of public health labs, and also the fact that 
we foresee an availability, as Commissioner Hahn has said, of a 
large number of tests being available from private--from the 
private sector, we think that there are going to be a lot more 
testing going on with that, with that particular----
    Mr. Khanna. But can we just have them report? I mean we are 
the United States of America, not China. We believe in 
transparency and getting the facts out. Can we just make sure 
the CDC is actually reporting the number of tests they are 
doing, or--and all the information they have?
    Mr. Hargan. We will work with CDC about exactly what they 
are bringing forward.
    Mr. Khanna. Thank you. If you could, talk to them about the 
reporting.
    The second thing I don't understand--again, because we are 
the United States of America--is how have we only done 472 
tests, while South Korea has done 100,000 tests already, and 
Italy 23,000. I mean, we should--we are the most innovative 
nation in the world. We have the most resources. How do we make 
sure that we are getting tests out there, and leading in this?
    Mr. Hargan. In this case there has been no backlog in terms 
of tests presented to CDC. So that is the good side, that we 
have not had backlogs. The number of tests, there have not been 
any delays in terms of tests being presented to CDC, or 
backlogs of any kind.
    With regard to that, before the end of this week we are--as 
CDC has indicated, we should have public health labs throughout 
the country. We will have those tests available, FDA-approved 
tests, to get out there more broadly, locally. So those--that 
was as of last Friday.
    And, as I said, Commissioner Hahn, working with the private 
sector, believes that there will be many, many more tests 
available----
    Mr. Khanna. Can we set a goal that we should be the number-
one country in having more tests than any other country? I 
mean, it seems----
    Mr. Hargan. I believe the----
    Mr. Khanna [continuing]. absurd that we couldn't lead in 
that.
    Mr. Hargan. I believe, by Friday, we will see a substantial 
uptick in that.
    In many cases, what we also have to make sure is that we 
have accurate testing, that we make sure that--and CDC work 
closely with FDA to make sure that our tests were accurate.
    Mr. Khanna. And is there a reason we are not using the WHO 
test, the World Health Organization that so many other 
countries are using?
    Mr. Hargan. Well, we often--WHO is often relied on by 
countries that don't otherwise have resources in this area.
    Mr. Khanna. Right.
    Mr. Hargan. So many times we, or countries in our--we will 
have our own tests for these particular----
    Mr. Khanna. But, I mean, in this case, I mean, my view is 
we should just get the tests out there. Can we explore if that 
is something we should do?
    I mean, I agree, we should be building our own tests, but 
if we can test more people, why not use that?
    Mr. Hargan. Well, we can--I will definitely take that back 
to CDC.
    Mr. Khanna. Great.
    Mr. Hargan. Thank you.
    Mr. Khanna. The other issue is can we assure people that 
the testing and the treatment will be free for anything related 
to the coronavirus?
    Mr. Hargan. I think when we get--for example, with regard 
to vaccines, we are working--we will--our scientists have 
developed some of the intellectual property underlying the 
vaccines, and we will be negotiating with any private-sector 
entities----
    Mr. Khanna. What about--I just see time--and what about 
this--the testing for a coronavirus? If you want to get a test, 
you should have it free. If you want to get treated for 
coronavirus, that should be free.
    Mr. Hargan. I think any--if Congress intends to put that 
kind of--that into the supplemental, we will work with them----
    Mr. Khanna. Would you support something like that?
    Mr. Hargan. We will work with all the particularities of 
exactly how Congress wants to do that funding. I am--assume you 
all would have discussions amongst yourselves about how you 
would like to----
    Mr. Khanna. Do you think that may be a good idea?
    Mr. Hargan [continuing]. provide funding on that area.
    I am not going to sort of double--second-guess Congress on 
how you decide to allocate resources, whether it is to testing 
vaccines, surveillance, personal protective equipment, 
therapeutics.
    We have got a lot of proposals on there, state and local 
support for responses. So there are a lot of elements to go 
into that. So I think we look forward to working with you all--
--
    Mr. Khanna. My final question, just because of my time, I 
ran in, actually, at a coffee shop to Dr. Sanjay Gupta, and he 
raised an important point. He said that there are only 64 to 
70,000 ventilators across the country, and that we may need 
more, especially as this is affecting the elderly. Has there 
been some concerted effort to make sure we are getting more 
ventilators in our hospitals and public facilities?
    Mr. Hargan. Yes, we have been talking extensively with the 
manufacturers of masks and ventilators to increase supply of 
them and other personal protective equipment.
    Mr. Khanna. If you could keep Congress apprised of what we 
are doing to get more ventilators across the country, that 
would be great.
    Mr. Hargan. Understood.
    Mr. Khanna. Thank you.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Oklahoma, Mr. Hern, for five 
minutes.
    Mr. Hern. Mr. Chairman, thank you. It is good to be here. I 
always find it interesting that we have these hearings talking 
about somebody else's budget, and we haven't done our own. I--
by the end of next week I will be in seven different hearings 
across three different committees talking about the President's 
budget, and yet we have yet to create a budget.
    These hearings often do--I just heard my colleagues say 
they start questioning the integrity of other agencies, as 
opposed to trying to find the underlying reason why we have not 
produced a budget. Maybe if we produced a budget, we could 
spend all this energy that we have been spending in Congress 
reconciling the differences between the President's budget and 
our budget, and having a real fight over ideology, as opposed 
to an ideology of having no values regarding a budget. So it is 
fascinating.
    You know, the Speaker often talks about the President 
destroying the Constitution. Yet one of our fundamental 
constitutional duties is to produce a budget. First--it is the 
first clause of the enumerated powers, and yet we have not done 
it. There is no intention to do one, because that would show 
the true underlying integrity of the values of the Democrat 
Party.
    And, you know, it is very frustrating. It is very 
frustrating for people to call my office--they know I am on the 
Budget Committee--and ask the question, ``Why are the Democrats 
putting a budget on the floor?'' (sic) We didn't do it last 
year. We did pass it out of this Committee last year, I will 
give the Chairman credit for that, but we didn't even pass it 
on the floor. And this year we are not even going to do that. 
So it is very troubling. And for my colleagues across the aisle 
to disregard that as a responsible--a constitutional duty of 
their office to be on this committee is just dumbfounding.
    You know, right now the Medicare Trust Fund is going to be 
out of business in six years. We have got to get after real 
structural changes to that to understand how we are going to 
keep our accountability and our responsibility to those who 
paid into that fund.
    And quite frankly, the true word of ``entitlement'' comes 
if I give you money, which I have paid in my entire life, as 
everybody else in this room has, I am entitled to get that 
service back to me. And we are not going be able do that 
because we have raided those funds over the years. We haven't 
kept up with the pace of our aging population and the soaring 
costs of health care in America.
    I could go on forever and ever talking about these 
fundamental failures in Congress. They are really good at 
blaming other people, because that sells well back in the 
district for their races that are coming up this year. But I 
want to ask you some questions about the underlying things that 
you can tell us about President Trump's position on America's 
health care.
    Where is the President at on pre-existing conditions?
    Mr. Hargan. The President--it is a centerpiece of what we 
are doing, is making sure that Americans with pre-existing 
conditions are protected.
    Mr. Hern. So he said that in his State of the Union. It has 
been said numerous, numerous times. The leader of the 
Republican Party has said it numerous times. You just said it 
again. I assure you that the left-wing media will not ever 
report that it was--it is going to be a centerpiece. They are 
going to still say it is not true.
    Could you also help me understand how--just talk about what 
is going to be in that budget. What is it going to look like 
for Medicare, the prescription drug costs, changing premium 
deductibles, co-pays, or co-insurance?
    Mr. Hargan. Right. So, with regard to what we are doing on 
Medicare and Medicaid, what we are proposing is, in some cases, 
taking out payments that have been allocated to Medicare, 
historically, like graduate medical education and DSH funding, 
that really, we don't think, belongs in--being paid for by 
America's seniors. It really needs to be an item that is 
outside--not being paid for by the Medicare Trust Fund. That 
means that that trust fund is now going to be dedicated to the 
programs that people have paid into, into that trust fund, as 
you pointed out.
    We are also trying to slow the rate of growth of the 
programs. That is not cutting the programs, but slowing the 
rate of growth. We think, between the reforms that we have got, 
we have got 25 years left in the trust fund with these reforms. 
We believe that these reforms, something like this, has to be 
enacted at some point to save these programs.
    Mr. Hern. Can I stop you right there, just because of time?
    Have the Democrats sent any proposal this year for just how 
we are going to save Medicare? It would be in their budget, 
right, how they are going to do that?
    Mr. Hargan. I have not--I am not aware of a----
    Mr. Hern. OK, I just want to make sure we got that on the 
record.
    Are there any things that are in the proposal this year 
that are the same as President Obama had in his proposals, as 
well?
    Mr. Hargan. We do propose--in terms of what President Obama 
said?
    Mr. Hern. Mm-hmm.
    Mr. Hargan. Yes, we continue to sort of, as I say, keep 
forward Medicare, Medicaid, the regular parts of our budget 
that have gone on administration after administration.
    Mr. Hern. I think the Medicare increase was 6 percent, or 
something. Is that----
    Mr. Hargan. Yes. And we are proposing--it is still a 
relatively--it is--we anticipate Americans' wage growth is 
about 3 percent per year. That is about--matching what we are 
proposing for Medicaid. And the Medicare proposal is higher 
than that.
    Mr. Hern. OK. Mr. Chairman, thank you. I yield back.
    Chairman Yarmuth. The gentleman's time is expired. And I 
now recognize the Acting Ranking Member for 10 minutes, the 
gentleman from Georgia, Mr. Woodall.
    Mr. Woodall. I appreciate the acting title, Mr. Chairman. I 
know Deputy Secretary Hargan is familiar with the acting title, 
and it conveys all the same responsibilities, just without any 
of the credit.
    I wanted to talk a little bit about where Mr. Khanna left 
off, Mr. Hargan.
    I think about the conflicting responsibilities you all have 
to actually be thinking ahead about ventilators, about masks, 
about not what is happening right now, but what is going to 
happen 12 months from now, 18 months from now.
    And then you also have a committee of 435 on the House side 
that wants to know what is going on. We may not be thinking 
about what is going on 18 months from now, we are thinking 
about what our constituents called us about yesterday. And so 
we are asking you to do all of this planning that you are 
absolutely doing so well. And we are also putting additional 
reporting and attendance requirements in along the way.
    I don't want you to have to throw anybody under the under 
the bus, but is that a manageable load?
    We are in crisis right now. You all are responding to 
something that I have not seen that level of response to, and--
in my lifetime. And it seems as if the demands that Congress is 
making of you are rising, instead of falling during that time.
    Mr. Hargan. Well, we have emergency response functions that 
are animated when these kind of things happen. We have been 
preparing, with Congress's resources, for the past two decades 
of giving money through the hospital preparedness program, 
through our prep money that is given by CDC to states and 
localities, and through exercises that go on every year between 
our preparedness and response people at HHS and their state and 
local partners. The most recent one was in August 2019 called 
Crimson Contagion that dealt with an outbreak of epidemic 
disease.
    So there has both been money--over about two-thirds of a 
billion dollars--that is spent every year on CDC for--the money 
that is laid out for preparedness. So we have a strong public 
health infrastructure to deal with preparedness and response.
    Now, in the case of this outbreak, as we would also 
anticipate, the Administration came forward last week, 10 days 
ago, with a supplemental. So we had asked for $2.5 billion. We 
understand that there is a possibility of Congress raising that 
number substantially above that.
    As the President said, we are open to that. We are happy to 
receive whatever funds that Congress sees fit to allocate to 
us. We look forward to working on that or any authorities or 
resources that Congress sees fit to give us to deal with this 
particular issue.
    Mr. Woodall. Well, I appreciate that recognition.
    Mr. Khanna asked whether or not you believed these tests 
should be free, and whether the treatment should be free. The 
Constitution doesn't give you the responsibility or even the 
opportunity to decide how money gets spent in this country. 
That responsibility lies specifically with us, here on the 
Budget Committee, but certainly across the 435 of us, 
collectively. And if there is going to be free health care in 
this country, it is going to be because Congress passes a law 
that makes that the case.
    I would tell you I have been paying my health care premiums 
for the last 30 years and, thankfully, I have not had to rely 
on that health care infrastructure. I don't need you to provide 
me with free care. I want my insurance company to provide me 
with free care, because I have been paying them for that, just 
in case. I know there are going to be other families that need 
those dollars, and I think it would be a terrible waste to 
blanket the country with free benefits. Target those benefits 
to the families that need them the most. I know that is what 
you have to do every day, in terms of prioritizing.
    It is hard to pass budgets. I have been on the Budget 
Committee since I came to Congress. And we have had to twist 
Republican arms every single year Republicans got a budget 
passed, because it is hard to put something out there to let 
somebody shoot at. I cannot tell you how much I value that that 
is a requirement that the law places on the Administration. And 
in an area as sensitive as yours, you all and the President 
stepped up to the task to make that happen.
    I appreciate you standing up for the fact that reductions 
in the rate of growth are not cuts in benefits to folks. A 
Medicaid program--as you know, we have been working on a block 
grant for Medicaid in Congress for quite some time.
    In so many states the only health insurance program in the 
state that doesn't dissuade people from attending the emergency 
room instead of their primary care physician is the Medicaid 
program. And to the extent that I am able to move a family out 
of the emergency room and into a relationship with a primary 
care physician, I am saving money for the taxpayer, no doubt, 
but I am not cutting benefits to that family, I am adding value 
to that family by moving them out of the ER, where care is 
sporadic, and into that relational care that a primary care 
physician can provide.
    So I know it is an easy line of attack that you will hear 
again and again and again, and I thank you for--hopefully, if 
we say the truth often enough, every year there is an increase 
in spending--then we will have some breakthrough.
    The Chairman knows what I know, which is if we don't turn 
the corner on federal spending, and federal revenues, and the 
inequality between the two, we are going to crowd out all the 
spending. Forget whether or not you want the CDC spending to go 
up or go down. It is going to get crowded out to zero, and 
there won't be anything you can do about it. I am anxious for 
us to take on some of those challenges, and I appreciate your 
efforts, particularly in the Medicaid program, to do that.
    But because we have talked so much about cuts, I want to 
talk about some of the some of the really great, great news. 
CDC is just south of me in Georgia, we are tremendously proud 
of what they do. It is not lost on me that, when they rescued 
Congress from the anthrax outbreak in--at the tail end of two 
decades ago, their spending rose dramatically after that.
    [Laughter.]
    Mr. Woodall. Their campus became much more attractive after 
they after they rescued us. You don't realize who you need, 
often, until it is too late. And that continual investment that 
you talked about, year after year, of the Administration is 
meaningful to me.
    But let's talk about the opioid program for a second. I 
know you made over $150 million in new resources available 
there. Is there something in particular that you were targeting 
those for?
    Or--again, different communities have different needs. You 
want to make sure additional resources are available.
    Mr. Hargan. Yes. So, you know, this has been one of the 
signatures for this Administration, was the President's early 
recognition of the fact that the opioids crisis had to be dealt 
with in the United States.
    It is an area where we have seen, last year, the very first 
downturn in 20 years in drug overdose deaths by, I think, over 
4 percent. That is still far too high. But it does mean that 
the tremendous amount of support and resources and authorities 
that Congress has given us over the past few years are being 
put to good use.
    We are finally starting to see some real effect in the 
United States, particularly in the hardest-hit communities, on 
rural inner-city communities that have been devastated by this. 
I mean we saw three years of lowered life expectancy for 
Americans, overall. Last--our--last year we finally saw an 
uptick for the first time in four years. But we have not seen a 
downturn in life expectancy. And the real change was the change 
in drug overdose deaths.
    So we have seen success here in the state opioid response 
grants that are provided to states, to tribal areas that are 
really starting to affect what they can do, particularly the 
huge uptake in medication-assisted treatment that we have been 
working on. So we have seen an increase in people getting 
medication in Naloxone and other medications that are allowing 
them to get real treatment to survive the drug overdose deaths.
    There is more to it than that. There are many elements of 
this, including how we treat pain, revising how opioids are 
prescribed, looking at surveillance, making sure that doctors 
know whether a patient is getting prescription drugs from many 
different sources, increasing the cooperation between different 
elements, between the us and the federal government, the 
states, the localities, social services on one side, and many 
elements that deal with people who are afflicted by opioids.
    So we have got a long way to go. We are coming down from 
historic levels of drug overdose deaths, so we don't regard 
this as the end of the road at all, but really the beginning.
    Mr. Woodall. Well, that is something that 435 Members of 
Congress share in support of.
    Another program like that--I think you are in your second 
year of the ending HIV initiative, not treat it, not survive 
it, end it with another big plus-up in funding.
    Mr. Hargan. Right.
    Mr. Woodall. Could you talk about that?
    Mr. Hargan. So we proposed a really large increase this 
year, hundreds of millions of dollars increase for the ending 
HIV epidemic. So we are in year two.
    The first year was really spent on some intensive planning, 
on intensive preparation among the localities. We have targeted 
the highest number of--where the continuing infections are 
happening. Fifty-seven jurisdictions, we are going to be moving 
into those.
    Eventually, because our public health experts think that we 
now have, technologically, through certain medications, the 
ability to suppress the virus, to prevent its transmission, 
that will eventually cause no more transmission. That means no 
more new infections with HIV. We believe, technologically, we 
can get there.
    Congress did great, gave us great resources last year. I 
think we achieved what we wanted to achieve last year in terms 
of, like, planning and preparation for what we are going to do, 
and starting the work.
    I think now we are looking at year two, we are looking at a 
substantial increase in that amount, because now we are going 
to be moving into implementation of the plan. But hopefully, by 
2030 we are going to see the real--starting the real end of 
this epidemic.
    Mr. Woodall. Mr. Chairman, it would make your job easier if 
we had more of an opportunity to celebrate those kinds of 
shared successes.
    When you think about budgets, you think about everything we 
disagree about. And we could have gone on and on. We could go 
on to maternal mortality rates, and a pilot project that they 
are now expanding to 50 states, things that you and I support, 
that all of our colleagues support. And sadly, most of the 
microphone time gets spent on those things that divide us, 
instead of that unite us.
    So thank you for having this hearing, an opportunity to 
talk about those things that bring us all together.
    Thank you for your service, Deputy Secretary.
    Mr. Hargan. Thank you, Congressman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
yield myself 10 minutes.
    Once again, Deputy Secretary, thank you for being here. 
Thank you for your responses, and I thank all my colleagues for 
their contributions.
    I want to clarify one thing for the record that Mr. Roy 
mentioned, because he mentioned that the President's budget--
this has nothing to do with your specific Department, but the 
President's budget was in--came to balance. Yes, it does in the 
15th year. He had to go 15 years to get it to balance. In the--
and make growth assumptions of 3 percent a year, which are far 
in excess of what virtually anyone else projects. And in the 
course of doing that, it runs deficits of over $1 trillion for 
the rest of this decade.
    So it is a little bit disingenuous, I think, to say that 
this balances--the President balances the budget .
    But I want to turn to the issue of what is a cut. It has 
gotten a lot of attention today. It got attention during the 
discussion we had with the director of OMB a few weeks ago.
    And I have to smile a little bit to myself when I hear this 
discussion, because--and this is no--not directed at anybody on 
this side of the room, because nobody was here in 2010, when we 
discussed the--when we drafted and passed the Affordable Care 
Act. But I remember very vividly in the fall of 2010, leading 
up to the campaign, when Republican after Republican, in their 
campaigns, talked about how Democrats were cutting $700 billion 
out of Medicare, $700 billion. I can't imagine how many 
millions of dollars were spent making that attack on 
Democratic--congressional Democrats in 2010. And we said the 
same thing. We said, ``We are not making cuts, we are reducing 
payments to providers.''
    But on the other hand, we added services, free checkups 
every year, a variety of other additional services that seniors 
have not gotten. And we raised revenue. We imposed a provider 
tax. So, while we cut providers in one area, we said, including 
DME--that has come up today--3.8 percent tax. Everybody ought 
to contribute to the cost of this program.
    So when I see--we can argue whether lower costs, lowered 
rates of growth are cuts or not, we know that roughly 1.5 
million people, additional people, on net, join the Medicare 
beneficiary ranks every year. So there--it is not just the cost 
of the care, the general inflation of the care going up, it is 
also the population is growing over the next 12 years. It grows 
by 18 million people, projected.
    So, yes, obviously, there is a--again, we can run the 
numbers on that, and we can fight over whether lowered growth 
amounts to a cut or not. But again, 10 years ago there was a 
lot of hand-wringing over that same issue.
    And so I will ask you, Mr. Hargan, does the President 
propose any additional services to Medicare in the budget?
    Mr. Hargan. So there are increases. For example, the 
telehealth services that we talked about. So with regard to 
rural providers, we--so we think that there are areas where 
expansion of these things is possible, for example. And also, 
as I mentioned about colonoscopies, so in that area, so that 
people aren't sort of surprised by having a polyp removed and 
then getting a bill that will sort of--while they are in the 
middle of it, doing the best practice, the doctor does it and 
then a bill shows up at the end. So we are proposing to reform 
that area, as well.
    So there are areas where we are proposing, where we think 
there are limited areas where we can provide extra benefit.
    Chairman Yarmuth. Those are services, generally speaking, 
across the entire health care spectrum, not necessarily 
targeted to Medicare beneficiaries. Right?
    Mr. Hargan. And these are areas, though, where, if we 
eliminate co-insurance, for example, for colonoscopies, that is 
definitely--in Medicare we are proposing extending coverage of 
immunosuppressive drugs with regard to transplants.
    So now, whether that results in a--that may result in a 
savings over time, because, if they are applied, you result in 
potentially fewer hospitalizations and increased care later. 
But it does--it is going to be a coverage, extra coverage for 
something.
    So there are areas where we have proposed increases in 
coverage, compared to what we have now.
    Chairman Yarmuth. Does the President's budget propose any 
increased revenues to the Medicare program?
    Mr. Hargan. Well, I think that we would look to the revenue 
side, rather than the budget side for this, in terms of 
increased revenues.
    Chairman Yarmuth. So let me segue into the conversation you 
had about pre-existing conditions, because this also intrigues 
me. I have challenged my colleagues on many occasions to tell 
me exactly how you protect pre-existing conditions without 
either the Affordable Care Act or Medicare or Medicaid. How can 
you preserve pre-existing conditions in the private insurance 
market without--well, I just ask you, how can you do it 
differently than the Affordable Care Act attempted to do it?
    Mr. Hargan. I think Congress had put forward a number of 
proposals over the past few years dealing with pre-existing 
conditions.
    Chairman Yarmuth. Congress has put forth proposals to 
guarantee issue. Congress, to my knowledge, has never put forth 
a proposal where you have guaranteed issue, and also 
affordability concerns.
    In other words, you can force insurance companies to sell 
anybody a policy. But if you are not going to regulate the 
price, then you haven't really protected them. Is that correct?
    Mr. Hargan. Well, I mean, the--as you know, the existing 
law, ACA, produces some of those----
    Chairman Yarmuth. Yes, exactly. Outside the ACA. And so I--
again, it is just perplexing to me--and this is where we were 
back in the repeal-and-replace debate, which we went through 
for eight years. It was, OK, how are you going to replace it? 
And there was never a proposal.
    And the reason there was never a proposal was because the 
only way to replace it with anything that makes sense is 
universal health care, or Medicare for All, or some version of 
it. And my colleagues knew that. And that is why I am sure they 
were absolutely relieved when John McCain put thumbs down on 
the Senate floor, because they would have had to come up with a 
proposal, and they didn't have a way to do that.
    But I want to go also now--and this is related--on the 
question of prescription drug prices. You said, and I 
appreciate it very much, that you stand willing to work with 
Congress to come up with a solution.
    So the House of Representatives, under a Democratic 
majority, passed a bill, H.R. 3. The Administration doesn't 
support it, Republicans in the Senate don't like it because 
they refuse to take it up. So what is the responsibility, if 
you say you are willing to work with us?
    We put forth a proposal. Don't you think either the 
Administration or Republicans in the Senate have an obligation 
to work with us or, if they don't like our proposal, to come up 
with an alternative, or some amendment of ours, some 
modification of H.R. 3 to deal with that?
    Mr. Hargan. Well----
    Chairman Yarmuth. It is not--I mean I appreciate your 
willingness to work with us, but don't you have a 
responsibility to advance some ideas of your own?
    Mr. Hargan. Well, I would say that we have articulated at 
least four principles that I think would be broadly acceptable, 
which is that lowering list prices, lowering patient out-of-
pocket costs, improving competition, and creating better 
conditions for negotiation. Those are the priorities, high 
level, that we have talked about in terms of drug pricing, 
which we think would fix it.
    I mean we have seen a number of bills that have been 
proposed on both sides, in the House and in the Senate. Now the 
question of reconciling the congressional bills, I think, we 
would look to the Congress to move those forward. And we look 
forward to working with you, providing whatever technical 
assistance or advice that we can as you all work through 
preparing, as we say, a bipartisan, bicameral solution.
    We do have, as I say, a lot of--a deep bank of experts 
within HHS who we would make available to anyone working on 
bills. And we--as I say, we have an articulated set of 
principles, and the President is 100 percent behind this goal. 
And we are, at HHS. We know it is the articulated concern for 
Americans to bring down drug costs. And so, if we can do that, 
I think that is going to be good for everyone.
    Chairman Yarmuth. Yes. You know, I think everybody here 
would agree with the principles that you put forward. Those are 
kind of--OK, that is motherhood and apple pie. We could--we can 
accept those.
    But if the Senate is not going to act, and the problem 
exists, and the American people are paying the price every day, 
don't you think that the Administration--not necessarily HHS, 
but at least the White House--has an obligation to lead in this 
area if--we have tried to do our part in the House, the Senate 
has refused to act. I just contend that the White House and the 
Administration have an obligation to lead on this issue, and 
not just say, ``We would be willing to work with you,'' because 
that does not move the ball forward an inch.
    And my time is about to expire. I just have one quick 
question on coronavirus. Is there modeling done that indicate--
would indicate the range of possibilities for transmission of 
this disease?
    And if so, why shouldn't the American people have the range 
of possibilities?
    Mr. Hargan. Well----
    Chairman Yarmuth. Have you modeled yet what the kind of 
extreme possibilities might be?
    Mr. Hargan. So I know that there have--there are 
available--there are disease spreading models that have been 
out in public, frankly, for dealing with infectious disease. 
And a lot of those have been exercised in the past to 
actually--in--you know, in accordance with some of the 
preparedness work that has been done in the past. So I would be 
happy to share that with you, and talk through if--as--talk 
through with people exactly how those kind of things are 
arrived at.
    Chairman Yarmuth. I appreciate that. And I know there is 
the potential for alarming the public unnecessarily, and you 
don't want to do that.
    But again, I think the public does have, I think, the right 
to understand how little this could spread, or how much it 
could spread. But----
    Mr. Hargan. Exactly.
    Chairman Yarmuth. But anyway, I appreciate your----
    Mr. Hargan. Yes, sure.
    Chairman Yarmuth [continuing]. cooperation.
    Mr. Hargan. Thank you.
    Chairman Yarmuth. We will work with you on that.
    Mr. Hargan. Thank you.
    Chairman Yarmuth. And once again, I thank you for your 
appearance here today, and all of your responses.
    And with--unless there is any further business, I--this 
hearing is adjourned.
    [Whereupon, at 12:11 p.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
</pre></body></html>
